<html>
<title> - TREASURY, POSTAL SERVICE, AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2001</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]


                 TREASURY, POSTAL SERVICE, AND GENERAL

                     GOVERNMENT APPROPRIATIONS FOR

                            FISCAL YEAR 2001

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION
                                ________

  SUBCOMMITTEE ON THE TREASURY, POSTAL SERVICE, AND GENERAL GOVERNMENT 
                             APPROPRIATIONS

                      JIM KOLBE, Arizona, Chairman

 FRANK R. WOLF, Virginia            STENY H. HOYER, Maryland
 ANNE M. NORTHUP, Kentucky          CARRIE P. MEEK, Florida
 JO ANN EMERSON, Missouri           DAVID E. PRICE, North Carolina
 JOHN E. SUNUNU, New Hampshire      LUCILLE ROYBAL-ALLARD, California
 JOHN E. PETERSON, Pennsylvania     
 VIRGIL H. GOODE, Jr., Virginia     

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

       Michelle Mrdeza, Jeff Ashford, Kurt Dodd, and Tammy Hughes,
                            Staff Assistants
                                ________

                                 PART 4

                          INDEPENDENT AGENCIES
                                                                   Page
 Federal Election Commission......................................    1
 General Services Administration..................................  153
 National Archives and Records Administration.....................  485
 Office of Personnel Management...................................  727
 Committee for Purchase From People Who Are Blind or Severely 
Disabled.......................................................... 1053
 Federal Labor Relations Authority................................ 1067
 Merit Systems Protection Board................................... 1115
 Office of Government Ethics...................................... 1151
 Office of Inspector General, OPM................................. 1221
 Office of Special Counsel........................................ 1239
 United States Tax Court.......................................... 1261
                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 64-704                     WASHINGTON : 2000

                       COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                     DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico                  JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia                STENY H. HOYER, Maryland
 TOM DeLAY, Texas                       ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                     MARCY KAPTUR, Ohio
 RON PACKARD, California                NANCY PELOSI, California
 SONNY CALLAHAN, Alabama                PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York               NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina      JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio                  ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma        JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                   JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan              ED PASTOR, Arizona
 DAN MILLER, Florida                    CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                   DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia                 MICHAEL P. FORBES, New York
 RODNEY P. FRELINGHUYSEN, New Jersey    CHET EDWARDS, Texas
 ROGER F. WICKER, Mississippi           ROBERT E. ``BUD'' CRAMER, Jr., 
 GEORGE R. NETHERCUTT, Jr.,             Alabama
Washington                              MAURICE D. HINCHEY, New York
 RANDY ``DUKE'' CUNNINGHAM,             LUCILLE ROYBAL-ALLARD, California
California                              SAM FARR, California
 TODD TIAHRT, Kansas                    JESSE L. JACKSON, Jr., Illinois
 ZACH WAMP, Tennessee                   CAROLYN C. KILPATRICK, Michigan
 TOM LATHAM, Iowa                       ALLEN BOYD, Florida
 ANNE M. NORTHUP, Kentucky              
 ROBERT B. ADERHOLT, Alabama            
 JO ANN EMERSON, Missouri               
 JOHN E. SUNUNU, New Hampshire          
 KAY GRANGER, Texas                     
 JOHN E. PETERSON, Pennsylvania         
 VIRGIL H. GOODE, Jr., Virginia     

                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
  TREASURY, POSTAL SERVICE, AND GENERAL GOVERNMENT APPROPRIATIONS FOR 
                                  2001

                              ----------                              

                                         Wednesday, March 22, 2000.

                      FEDERAL ELECTION COMMISSION

                               WITNESSES

DARRYL R. WOLD, CHAIRMAN, FEDERAL ELECTION COMMISSION
DANNY L. McDONALD, VICE CHAIRMAN, FEDERAL ELECTION COMMISSION
DAVID M. MASON, COMMISSIONER, FEDERAL ELECTION COMMISSION

                    CHAIRMAN KOLBE OPENING STATEMENT

    Mr. Kolbe. The Subcommittee on Treasury, Postal Service, 
and General Government will come to order. I am delighted to 
welcome in your first appearance as chairman, Commissioner 
Darryl Wold, Vice Chairman Danny McDonald, and again, 
Commissioner David Mason. Commissioner McDonald certainly isn't 
new to testifying before the Subcommittee, but I think it has 
been a while since you have been here as the Chairman of the 
Finance Committee and presented the budget to us. So we welcome 
the insights of all three of you to the FEC's fiscal year 2001 
appropriation request.
    Let me begin by saying that I want to give you a pat on the 
back, I want to commend you for the budget justification 
documents that have been used in preparing this year's budget 
request. I think it is fair to say that this is the first time 
in nearly 6 years that the Federal Election Commission has not 
painted a picture of doom and gloom over its current and past 
budgets. I think there has been a real concerted effort made to 
focus on what can be done with the resources available rather 
than simply focusing on all of the things that have been missed 
because of things that were not provided in appropriations in 
past years.
    So I would just like to say that I think it is a positive 
development of looking at the glass being half full rather than 
half empty. I am also pleased to see that the FEC is taking 
what I think are very aggressive and positive actions to 
implement a lot of the recommendations that were contained in 
the PriceWaterhouseCooper's Management Review and Technological 
Audit that was done in 1999. I appreciate the updates that you 
have been forwarding to this Committee, and I again commend you 
on the progress that I think you have made to date.
    I am particularly pleased with the progress that we have 
seen in the area of electronic filing. I believe this effort is 
an important enhancement to the reporting requirements for the 
Federal Election Commission. I am also pleased with your 
progress to date on establishing an administrative fine 
schedule and implementing a pilot project on alternative 
dispute resolution. It seems to me that these efforts are 
essential to the FEC's ability to manage the growing workloads 
in more efficient and productive ways.
    Now, having thrown all of this praise your way I don't want 
you to get complacent. There is never, of course, 100 percent 
satisfaction in the overall performance. I don't think you have 
100 percent satisfaction or should have in your own business. I 
do want to commend you, though, on the initiatives in what I 
think is a new way of thinking at the FEC. But I do think there 
is a lot that remains to be done. So I hope that you will 
continue on the path towards implementating the PWC 
recommendations and particularly what I call looking outside 
the box, looking for new ways to achieve the objectives that 
are contained in your authorizing legislation, sustaining this 
last year's level of enthusiasm for creating and developing 
efficient methods that can help ensure timely disclosure and 
compliance with the election laws that we have. I look forward 
to your testimony and let me turn to Mrs. Meek and see if she 
has any opening statement.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mrs. Meek. I just want to welcome the Commission and it 
will be good working with you.
    Mr. Kolbe. Thank you very much, Mrs. Meek. If Mr. Hoyer has 
a statement when he arrives--we understand he is coming from 
the White House and should be here fairly shortly. But in the 
event, we will be happy to take your statement as always of 
course. The full statement can be placed in the record and we 
look forward to hearing the comments that you would like to 
make now and move directly to questions.
    Commissioner.
    Mr. Wold. Thank you, Mr. Chairman. We would like our 
testimony entered into the record.
    Mr. Kolbe. Absolutely.
    Mr. Wold. I think our vice chairman, the chairman of the 
finance committee, Commissioner McDonald will give a brief 
summary of that and accept the accolades on behalf of the 
Commission. Thank you very much for your comments.

              SUMMARY STATEMENT OF VICE CHAIRMAN MCDONALD

    Mr. Kolbe. Commissioner McDonald.
    Mr. McDonald. Mr. Chairman, thank you, and Congresswoman 
Meek. It is a pleasure to be here. I think the best thing to do 
is stop after the comments made by the chairman. That pretty 
well covered my presentation for the morning activities.
    Let me briefly outline for you the money that is involved 
and highlight a few of the projects that the chairman mentioned 
at the outset, and then, of course, we would be happy to answer 
any questions. First of all, let me thank this committee. It is 
very important and I appreciate the chairman alluding to it. 
The bipartisan support by this committee last year was very 
instrumental to us in helping us achieve some of the goals that 
we had talked about for a long time. And without that we 
wouldn't have made the kind of progress that was referred to in 
the opening part of the statement.
    The fiscal year 2001--I have continually referred to it as 
1990-something, Mr. Chairman; I am having trouble getting used 
to this. But in 2001, we are asking for $40,960,000 and 356 
FTE, which represents an increase of $2,782,000, which is about 
a 7 percent increase, and a 4 percent increase in terms of our 
FTE. Last year we had an FTE of 352. The budget request 
reflects an agreement reached with OMB for a funding level of 
$40,500,000, and the additional 4 FTE results in another 
$460,000, as you know, that we are requesting for the 
commissioners.
    Let me break down briefly where that money will be used in 
terms of the money that we have asked for. Of the $2,682,000, 
$1,477,000 is what you would anticipate to offset inflation and 
administrative costs of the current levels of operation, that 
is to say, within grade increases, career ladder promotions, 
cost of living adjustments, retirement funds, contributions, 
insurance cost, GSA rental rates and overhead cost of phones, 
equipment and supplies. I think the normal things that we would 
all anticipate.
    $1,205,000 is for additional resources in program areas: 
the 4 FTE that I referred to; $100,000 for contract funds to 
complete the voting assistance standards update; $60,000 for a 
conference for national election administrators from around the 
country to work on these activities; and another $100,000 for 
legal document imaging and indexing. In addition, we are making 
some changes as we discussed the other day, Mr. Chairman, which 
is in our--we are taking 5 FTE that we had over in our audit 
division, and although we are not taking them all out of there, 
we are moving three of them into a different track in terms of 
trying to enhance our ability to have more audits in a given 
year. Then we will take 2 additional FTE and move into our 
alternative dispute resolution program, which is a pilot 
project that we have.
    We think the program, which Commissioner Sandstrom was very 
instrumental in bringing to us will allow us to eliminate long 
delays that may be incurred from time to time on what we 
consider very routine matters. So we are hopeful that that will 
help us. We are hoping that the administrative fines process 
that this committee was kind enough to forge ahead on last 
year, will help us reduce the amount of time and energy we 
spend on routine cases.
    I would like to comment on those three statutory mandates 
from last year for just a moment. We are going to have 
electronic filing as you alluded to. We will have a rule-making 
issued by December 2000. The Commission also is implementing a 
rule-making on election cycle reporting for the year 2000. 
That, again, is directly from this committee, and we appreciate 
that very much. On the 2000 administrative fines where we are 
trying to once again make the process much more 
straightforward, we are actually having an open session 
tomorrow to discuss how we are going to finalize that system 
and it should be applicable for the July reports.
    Again, that would be a straight-up process where people 
would be served notice right up front on what they could or 
could not expect if they did not file reports, either timely or 
did not file them at all.
    So those are some of the things, Mr. Chairman, that we are 
looking at. We have a number of things that we are prepared to 
discuss with you as reflected in our record. I thought it might 
be better if we could just get right to the questions.
    Mr. Kolbe. Excellent. Thank you very much.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   INCREASE IN FTE FOR COMMISSIONERS

    Mr. Kolbe. Let me begin by asking about, as you noted in 
your statement the increase is fairly small, and 3.9 percent of 
it is for administrative costs of current levels of operation. 
Of the new funds, the $1.2 million for additional resources, a 
large part of it, a little more than a third of that is for 4 
FTEs for administrative assistants to the Commissioners. 
Currently you have one for each commissioner; is that correct? 
And that would--except for the chairman and vice chairman----
    Mr. Wold. During the term of the chairman and vice 
chairman, they are entitled to two executive assistants.
    Mr. Kolbe. This would give two executive assistants to each 
of the commissioners. And I also know that your budget is one 
that is concurrently reviewed by OMB, so you can submit 
separately and, in this case, OMB did not recommend the four 
additional positions, but you chose to go ahead and submit 
that. Can you shed any light on your discussions with OMB as to 
why they did not choose to recommend that?
    Mr. McDonald. Well, I think the primary reason was that 
they felt like they would okay the positions, but they would 
not okay the money which, in essence, kind of puts us in a 
bind, needless to say. [Clerk's note.--The witness later 
clarified this to read: ``OMB did not approve of either the 
positions or the money but agreed the Commission could ask 
Congress for them. OMB did not give any rationale beyond 
disagreeing that the Commissioners need an additional executive 
assistant to properly manage the agency.''] The one thing we 
are not interested in doing is to take away from 
existingprograms. We think that is self-defeating. We have found over 
the years, and I am sure you can identify with this, the amount of time 
that it is taking each one of the executive assistants out of our 
offices to work in each one of these areas, just the activities in 
Pricewaterhouse alone, is unbelievable. We think the end result is very 
good, and, in fact, we have been asked by this Committee to be more 
hands-on in the day-to-day activities of the Commission itself. 
Although there was some reluctance initially to be more involved, it 
proved to be a wise request by the committee.
    So we are asking our staff to spend more and more time in 
this area implementing a number of these new programs. When you 
are doing that, of course, you are not getting to the 
fundamental business of the Commissioner's office, which is to 
try to analyze legal implications of a number of the cases we 
have. Our caseload has grown fairly substantially, and we find 
it is very hard to cover all of the frontiers you want and need 
to cover with just one executive assistant.
    Mr. Kolbe. You have answered part of my next question, 
which is, what is your rationale for these positions? But 
elaborate for me as to why you would think in terms of meeting 
or implementing the Pricewaterhouse recommendations, why it is 
not more advantageous to take these 4 positions and put them 
into audit or some other place in the organization? What is the 
rationale that they are needed as executive assistants to the 
Commissioners?
    Mr. McDonald. Well, again, the key component is we can 
always use 4 more, whether it is in audit or in OGC or whether 
it is in RAD. But, as a practical matter, what we are finding 
more and more as commissioners, as we become more and more 
involved, is we need to be more involved in that process. It is 
very hard to have somebody working on the caseload and then at 
the same time, being off to meeting X, Y, and Z while 
simultaneously trying to prepare us in terms of the impact of 
electronic filing and any of the other activities.
    The dramatic difference the chairman and I noticed by 
having two assistants is we are in good shape. We have the two 
executive assistants which is great for us. But, the difference 
in the flexibility and focus you have in taking care of your 
duties is fairly substantial.
    Mr. Kolbe. One final thought along those lines. You said 
yourself that you find that the duties of getting involved in 
such things as electronic filing is so substantial that you 
need this additional staff because you really need to focus on 
your fundamental mission, which is to review the legal 
implications of cases that are brought before you. Are the 
Commissioners getting too much involved in the detail of 
running the organization? Isn't that what you have a 
professional staff to do? And wouldn't using this staff more 
allow you to focus on the legal implications of cases?
    Mr. McDonald. I think it is always a balancing act. I was 
an administrator. That is what I used to do for a living before 
I got here. And I must say to you that is always the balancing 
act. But let me answer as directly as I can. What we try to get 
involved in are things that are ultimately going to result in 
policy decisions. For example, if you look at the 
administrative fines, the key component there is if we don't 
have a good sense and are not paying very close attention to 
what type of resources this program is going to take and how it 
will impact on the process, if commissioners are not at ground 
level on that, that is a problem because it impacts directly on 
the regulated community. The same is true about the case 
management system. As a practical matter in terms of case 
management, we know the impact it has on the overall process 
will reflect directly on our users.
    And so we are trying to get more involved in that program. 
I think you are absolutely right. Our goal is never to do the 
day-to-day business, but we never want to get caught short. One 
of the things raised in Pricewaterhouse was it was critical for 
the Commission to interact more closely with the various 
divisions. I do think that is critical.
    Mr. Wold. Mr. Chairman, with your permission, I would like 
to add my support for what Commissioner McDonald has explained, 
and maybe flesh out a little more how we are using the staff in 
the administrative oversight function. In implementing the 
PriceWaterhouseCooper's recommendations, and other initiatives 
we have taken on our own for management and structural changes, 
we have formed task forces and working groups composed of staff 
from the respective divisions. These working groups plan out 
how the changes would be made and how they would be 
implemented. We have found that rather than wait for that staff 
report to come back to the commissioners and see it for the 
first time and then say, well, we didn't like one of your early 
assumptions that you made, go back and start over at that point 
and come back to us again. We found that it is more productive 
to have our own staff involved in that planning process so that 
as issues come up, they can bring it back to the commissioners 
immediately. We can give an informal recommendation at that 
point to shape the direction that the plans are going, so that 
when we do get a final report with a recommendation to 
implement a new program, we are, at that point, already 
familiar with the details of it, and our input has already been 
taken into account.
    So it is pretty much the way that we want to see it at that 
point. But these task forces and working groups meet on a 
regular basis. At last count I think there were nine of them 
that were active that our staffs are involved in meetings with. 
We just found that is very time consuming. That drains a lot of 
time from our staff that would otherwise be devoted to the 
legal review that we undertake on enforcement actions, on audit 
reports, on new proposed regulations and on advisory opinions 
that come to us on a regular basis.
    So our staff has just been stretched too thin to do both 
functions, and that is why we are asking for the new staff. I 
should say we also have three committees of commissioners to 
enhance or increase our oversight responsibilities. One 
committee is the finance committee that has been in place for 
some time to review our budget as it is developed and made 
ready for presentation to this committee. Last year Chairman 
Scott Thomas formed a regulations committee to get 
commissioners involved on a regular basis working with our 
staff in the General Counsel's Office to develop regulations, 
to set a priority for promulgating new regulations and working 
with them so that the product coming out is going to be 
acceptable to the Commission.
    This year, I have appointed a litigation committee to 
perform the same function with respect to litigation that 
isundertaken by our General Counsel's Office, both on the enforcement 
level to make sure that we have an appropriate balance in the scope of 
the litigation to pursue our enforcement actions, and also to be 
involved in any policy decisions that may necessarily arise in the 
postures in litigation defending the interpretation of the 
constitutionality of the provisions of the Federal Election Campaign 
Act. Staff is involved in those committees also, as are the 
commissioners themselves.
    Again, that takes time that hasn't been part of our 
traditional workload for the executive assistants.
    Mr. Kolbe. Thank you for that explanation. I will have some 
additional questions, but let me turn to Ms. Meek.
    Mrs. Meek. Thank you, Mr. Chairman. I understand in your 
fiscal year 2001 budget, you are seeking FTEs, as you stated, 
to provide a second executive assistant for each commissioner 
so that you will have another executive assistant. You also 
proposed to add new functions to your audit staff. But you are 
not seeking additional FTEs for compliance or enforcement; is 
that correct? And if that is correct, what is your rationale 
for that?
    Mr. McDonald. Well, it is correct, and there are a number 
of things. I should have, Congresswoman Meek, addressed that in 
my opening comments. We have for years, as you may know, come 
before this committee and asked for additional help and have 
been getting that help. We went through a real down period in 
the mid 1990s where, in the litigation side in particular, we 
went from a high of 28 attorneys down to about 18. We have 
gradually had the opportunity to build back up over the years.
    We hope a number of these projects we are referring to this 
morning, particularly administrative fines and alternative 
dispute resolution, will take some of the burden off of the 
General Counsel's Office and allow us to free up more resources 
so we can continue to work. We are pretty comfortable right now 
where we are as reflected in the Pricewaterhouse statement 
about the Commission. We think there are a number of things we 
have been able to do to help in terms of saving time. We will 
know more, quite frankly, when we take a good look at our case 
management system implemented last October. We are taking a 
look at it in April. As you know, and the chairman alluded to 
in his opening comments, we are always looking for more help, 
but we are fairly comfortable where we are at this juncture.
    Mr. Wold. I might add, Congresswoman, that the additional 
FTE in our audit program is part of our compliance program, 
because that determines whether there have been violations that 
may result in an enforcement action. So we refer to that as 
compliance also.

                    BLACKS IN SUPERVISORY POSITIONS

    Mrs. Meek. Normally, I ask agencies who come before us this 
question regarding your minority hiring and your minority 
contracting. I think I asked you this question last year and I 
looked at the answers that you sent to me regarding the profile 
of your contractees. And the percentage that you are utilizing 
is typical of most Federal agencies in that regard. But I found 
it surprising that there were no black males in the top 30 
supervisory positions in your agency. You may want to explain 
this.
    Mr. McDonald. I apologize, because I don't know exactly 
what the status of that is. I am going to have to ask the 
staff.
    Mrs. Meek. Would you provide me with that information?
    Mr. McDonald. Yes, I think that we could get that to you 
before the end of meeting.
    Mrs. Meek. I received these data from you. Thank you, Mr. 
Chairman.
    [The information follows:]

    There are a total of 71 FEC employees classified as 
supervisors or managers. Of that number:
    7 are black females or 10% of the supervisory workforce.
    5 are black males or 7% of the supervisory workforce.

    Mr. Kolbe. Thank you, Mrs. Meek.
    Mr. Hoyer, welcome.

                 OPENING STATEMENT OF CONGRESSMAN HOYER

    Mr. Hoyer. Thank you, Mr. Chairman. I apologize to Mr. 
McDonald and Mr. Wold and Mr. Mason for being late. I was with 
the next President of the United States, but he is currently 
the Vice President of the United States. With all due respect 
to you, I didn't want to leave. But I am pleased to be here and 
I welcome you to the committee and say that I am pleased that 
the budget submission is such that I think we have a budget 
that can help you, and there are some things that we need to do 
to assure that you have the capability, both in terms of 
technical capability, information technology, and personnel, to 
accomplish the objectives and the job that we expect of you and 
the American public expects of you. We are in question time, 
right, Mr. Chairman?
    Mr. Kolbe. Yes, we are. Please go ahead with a statement if 
you would like.
    Mr. Hoyer. I will include my statement in the record. It is 
glowing and you would love it.
    Mr. McDonald. Oh, well, please.
    Mr. Hoyer. I want to say to my friend, Mr. McDonald, it has 
been a pleasure to work with him over the years. I want to say 
to both Republicans and Democratic members of the FEC that 
hopefully you will work together in a colleagual way. Obviously 
there are partisan differences from time to time. But what the 
Congress expects, and I think what the American public expects, 
is for the elections to be run as openly and honestly as is 
possible, irrespective of which party, because really in the 
final analysis, the American public wants to make a judgment 
based upon as much information as they can get as quickly as 
they can get it.

                           ELECTRONIC FILING

    Toward that end, let me ask a couple of questions. First of 
all, electronic filing. The first provision mandated the 
electronic filing beginning in January 2001, for certain 
filers. Can you give us an update for how preparations for 
mandatory electronic filing are progressing if you haven't 
already done that?
    Mr. McDonald. Mr. Chairman, Commissioner Wold, I thought 
was getting ready to answer. But, if he is not, I will. 
Congressman Hoyer, we are in pretty good shape. By the end of 
the year, we will develop the proposed regulations and have 
these out to the general public. As you know, we think it is 
going to do a substantial amount for us, and we are pretty 
confident by December 2000 we will be ready to go with a final 
rule. We think it will make a very substantial difference in 
the impact on the process.
    Mr. Hoyer. It is my understanding that voluntary electronic 
filing is increasing.
    Mr. McDonald. It is indeed.
    Mr. Mason. We about doubled the number of committees that 
are filing voluntarily. I just wanted to give you a few more 
details about the mandatory electronic rule-making because the 
Regulations Committee has approved a staff draft and instructed 
them to forward that to the full Commission. So, probably next 
month, the Commission will receive and be able to act on a 
draft notice of proposed rule-making, which we will put out for 
comment, review the comments, adopt it and submit it to 
Congress.
    So that is something you will see as a public document in 
the next month or so. That document also will have the proposed 
thresholds--how big committees will have to be--to fall in the 
mandatory filing category. We should then have a couple of 
months to go back and forth to consider major concerns and get 
the regulations submitted to Congress so we will have the 30 
legislative days before you recess in October.
    Following that schedule, committees will have a lot of 
notice for rules going into effect in January of 2001. They 
will have been out for comment for more than 6 months and the 
final rules would have been available for several months before 
they go into effect.
    Mr. Hoyer. I am glad to hear that. With respect to the 
increases in the voluntarily filings, is that causing you any 
unforeseen problems or are we able to handle that?
    Mr. McDonald. No, that is not a problem at all because even 
though the numbers are dramatic in terms of percentage, the 
actual numbers of committees are under 500. So we are making 
progress in that area, but it is not as quick as we would like. 
And, it does include presidential committees.
    Mr. Wold. We have been able to accept the very large 
filings from presidential campaigns--who are mandated to file 
electronically if they have accepted public financing--without 
any significant problems. So that has run smoothly, and that 
has increased our level of confidence that the program 
currently in place will handle the mandatory filing with 
reports beginning next year.

                     ADMINISTRATIVE FINE PROVISION

    Mr. Hoyer. Good, I am glad to hear that. The second 
provision that we included in the bill last year dealt with 
administrative fines. I know Mr. McDonald and I have had an 
opportunity to discuss that, but I would like you to discuss 
that on the record as to where we are going on that and what 
developments are occurring.
    Mr. McDonald. Well, I do want to address that and I thank 
you, and I would like for Commissioner Mason to address it as 
well, because he is the moving force behind those activities. 
But I think we are making good progress. Tomorrow in an open 
session, we will be coming forward with a proposal about what 
we would like to send to Congress. We are pretty confident we 
will be ready to go by the July filing date in terms of the 
first real impact on the process.
    Obviously, it is new territory for us. We are trying to get 
some sense of how it is going to play out in terms of impact on 
our staff. We are tying to work out the appeals process we know 
is mandatory for those that are not satisfied. But I must say 
we are very appreciative to the committee and you, personally, 
because I think it is a big step in the right direction. It 
does clear up a lot of the ambiguities we have talked about 
from time to time before this committee. It will give people 
clear guidance on what they can expect and what kind of money 
they might be less inclined to have at the end of the day if 
they have not filed in a timely fashion.
    So we are very hopeful this provision will be effective for 
the July reporting period, and we are pretty confident we will 
be sending these proposed rules to Congress in a few weeks.
    Mr. Hoyer. Mr. Wold, did you want to comment on that at 
all?
    Mr. Wold. I would like to have Commissioner Mason do that 
because this is an example of where we have delegated some of 
that to a committee of the commissioners, and Commissioner 
Mason has served on three committees, including the regulations 
committee, which is developing the proposed regulations and the 
rulemaking to implement the program.
    Mr. Mason. Lest I get all of the credit or blame, 
Commissioner Sandstrom is on the regulations committee with me.
    Mr. McDonald. We are waiting to see how these work out 
before some of us want to take any credit.
    Mr. Mason. What we had to do to implement the fine program 
was set up an administrative structure within our Reports 
Analysis Division to assess the fines because we have never 
done that sort of thing before. RAD already receives and 
reviews the reports, and will now add a task of generating 
notices for the Commission for late reports.
    We had to agree on a fine schedule which will be in the 
agenda document tomorrow. It has already been issued publicly, 
and that is on our Web site already today. And then we had to 
arrange an appeals process because the legislation provided 
that we had to have a hearing on what the basis of appeals 
would be. That is also outlined in the notice. Those are the 
steps that we have been through. We are hopeful that we will be 
able to vote that out tomorrow, put it out for a 30-day comment 
period, and that would give us enough time to then make any 
revisions and get those into effect so that we could start the 
process for the July quarterly filings.
    Mr. Hoyer. From your answers, I would presume that is the 
case, but are you clear on what you think the legislative 
intent of this provision was?
    Mr. Mason. That has been an interesting puzzle because the 
statements and the committees, the various committees involved 
with this committee and the authorizing committees, 
essentially, looked at the Pricewaterhouse recommendation at 
our request, which were focused principally on saving resources 
in the General Counsel's Office.
    So one of the things that we made sure to do in 
constructing the process was keep it out of the General 
Counsel's Office, keep it in RAD, have an appeals office that 
would be an independent office, so that in terms of any 
resource savings, we were able to plow those back into the more 
substantial enforcement cases. But we perceive, from previous 
discussions there were two other interests: one was certainty 
on the part of the regulated community. We are going to have a 
fine schedule and everyone will know if your report is this 
many dollars and this many days late, then this is what the 
fine will be.
    It will be a more transparent, and we hope a more fair 
system. And the third thing is that frankly we will be able to 
do more and better enforcement as to late filings. When we have 
to go through the whole long process in order to take care of a 
fairly simple late filing, there were only so many that we 
could do. So we are going to be able to take this opportunity 
to really do a better job, and we think it will vastly improve 
compliance in the filing community. That has certainly been the 
experience at the state level.
    Mr. Hoyer. I think the first objective is an important one, 
but I think the second and third objectives are going to be 
more useful. We want to save money, we want to have fewer 
requirements on the staff, and we want more productivity. But 
what we really want to do is make sure that we have certainty. 
All of these folks that are participating in the system know 
that if I mess up here, and I don't do this, what happens, 
rather than something that I shouldn't have done negligently or 
consciously.
    If it is catch as catch can, first of all, you are subject 
to a partisan attack, that a Democrat got a higher fine than a 
Republican or vice versa or an independent got a higher fine 
than any one of the parties because the independent doesn't 
have anybody on the Commission, theoretically. So I think the 
second and third objectives are very important.
    Mr. Chairman, I know I have taken my time but I will go 
another round.

                        ELECTRONIC FILING SYSTEM

    Mr. Kolbe. I will ask a few and come back to you. Let me 
just follow up a little bit on what Mr. Hoyer was talking 
about, the administrative fine schedule, and to some extent, we 
were talking about the electronic filing, just a couple of 
questions in the area of electronic filing. One of the 
Pricewaterhouse criticisms of the electronic filing system that 
you have so far is it doesn't meet the internal needs of staff 
or the expectations of the filing community, that is, those 
campaign committees that are filing; that it doesn't readily 
make reviewing finance data easier for your FEC analysts and it 
contains no smart features that could help the filers review 
and check the information before they actually send it. Do you 
concur with that finding of Pricewaterhouse?
    Mr. McDonald. Basically, I apologize, Mr. Chairman. I am 
trying to look through here. That was a criticism and we have 
dealt with it. I am trying to find out where it is in our 
report.
    Mr. Mason. There is a real difference between the filing 
software and the review mechanism. So what we have done is 
gotten RAD, who reviews the reports, to go to the Data 
Division, and we are developing routines which will allow 
essentially automated review of reports. Until we got a certain 
number of electronic filings, that wasn't worth doing. When we 
just had a few to set up, a whole different system to review 
one kind of report, it wasn't worth it. Now that we are going 
to have mandatory electronic filing, it is. But the question 
there wasn't so much the electronic filing software, but what 
we did with the electronic filings once we got them. So we have 
started to establish a mechanism to take the electronically 
filed data, transmit it to RAD electronically, and they will 
have their own software to review the reports. That takes care 
of the reviews part.
    In terms of the smart features, we had added some smart 
features to version 3 of the software, but all along there has 
been a little bit of tension in terms of us not wanting to be 
in competition with commercial software providers. There are a 
number of firms out there, as you know. So we made a decision 
to make our software serviceable but not to try to be out there 
and compete with commercial firms.
    Mr. Kolbe. Let me interrupt you there, because we have the 
same issues with another one of the agencies that comes under 
our purview here. On that software--so when you are talking 
about software, you are not talking about software that you are 
making available to me as a committee that files?
    Mr. Mason. Yes, we are. We have software that allows 
complete----
    Mr. Kolbe. How is that not in competition with what is in 
the marketplace?
    Mr. Mason. The commercial software is focused far more on 
fund raising and generating follow-up letters, maintaining 
direct mail lists and so on like that.
    Mr. Kolbe. So it wouldn't be--I guess what I am saying is 
we are still left with the problem that it is not compatible at 
all with your software, so a filer has to maintain two systems?
    Mr. Mason. No, it is compatible. We have worked with the 
filing community. The two biggest firms out there have had 
contracts with the Commission to make sure that their software, 
which is general purpose software, will generate reports which 
we can receive and use. In fact, that is the case. And so we 
have those two firms that have signed contracts with us. We 
have validated an additional 10 firms who are working with us 
to make sure that their software will generate reports that we 
can accept and read. That has been our goal, that anyone who is 
out there who wants to and is in the campaign management 
software business will have the technical specifications 
available that their software can generate reports for us.

                       SENATE ELECTRONIC FILINGS

    Mr. Kolbe. Our legislation contained a provision that said 
that the Senate committees do not have to file electronically. 
I just wonder what implications this has for your workload, 
your budget, and are you working with theSenate to try to get 
electronic filing done even if it is on a voluntary basis with Senate 
committees?
    Mr. Mason. The electronic filing in question with the 
Senate is more of a policy issue than a technical issue. We 
have made offers to the Senate and have worked with the 
Secretary of the Senate to provide them with the technical 
information and technical assistance that they need to do what 
they want to do. That is already resulting in some 
enhancements, for instance, to the Web site. And so we stand 
ready to assist the Senate and we can do that. As long as the 
Senate continues to receive paper filings, we are going to have 
to review those filings, and key in the data that is associated 
with those filings. Some of those are very big filings. So yes, 
it is a workload issue for the Commission.
    Mr. Kolbe. Is there any language that you want us to 
consider putting in our bill this year or report that would 
help you move that process along with the Senate? You don't 
have to answer that now but if there is something----
    Mr. Wold. Not that we want to tell the Senate----
    Mr. Kolbe. Is there something that you want to tell the 
Senate?
    Mr. Mason. I generally think it is more of a policy 
question with the Senate than a technical question.
    Mr. Kolbe. I understand that, but I am asking you if we 
need to prod our brethren over in the Senate on some policy 
standpoint.
    Mr. McDonald. We certainly have recommended it to them 
before on numerous occasions.
    Mr. Mason. I guess the best argument is that ultimately, we 
think electronic filing is going to be in the interests of the 
committees because it is going to make their job easier.

                   PRESIDENTIAL MATCHING FUND SYSTEM

    Mr. Kolbe. Let me ask you, if I might, a question on the 
Presidential Matching Funds. I think just a month or so ago, 
you certified a cumulative total of $39.6 million in Federal 
funding to eight presidential candidates, but I think you have 
only been able to disperse about 50 cents on the dollar. As I 
understand it, the Presidential Election Fund has a balance of 
about $165 million; is that correct?
    Mr. McDonald. That is correct.
    Mr. Kolbe. The first order of priority is you have to 
reserve money for the general elections. How much is set aside 
for that?
    Mr. McDonald. It will be about $69 million each, for the 
two presidential candidates, for the two major party 
candidates.
    Mr. Kolbe. Plus another $13 million, is that right, for 
the----
    Mr. McDonald. For the Reform Party.
    Mr. Kolbe. That brings you to--$69 million and $13 
million--about $82 million; is that right? Then how much for 
the conventions?
    Mr. Wold. $69 million each.
    Mr. Kolbe. $69 million each, okay.
    Mr. McDonald. Then you have $13 million each for the two 
major party conventions.
    Mr. Hoyer. $69 million is enough for three primaries.
    Mr. Kolbe. When do you think you will be able to make the 
candidates whole?
    Mr. McDonald. By June. The projection right now is about 
mid-June.
    Mr. Kolbe. After you have received all of the income tax 
filings for this subsequent year?
    Mr. McDonald. That is correct.
    Mr. Kolbe. The trends on check-off is not very encouraging, 
is it? The numbers of people have been declining fairly 
steadily from a high of around 28 to 29 percent down to around 
12 percent now?
    Mr. McDonald. That is correct.
    Mr. Kolbe. Have people made any projections about whether 
you think this trend is going to continue?
    Mr. McDonald. It is a little hard to know, but it is hard 
to deny what we have been seeing. There has been lots of 
speculation as to why that is the case. As you know, the 
expenditure side was not indexed when the law was written, and 
we had to come back and ask Congress a few years ago to put in 
additional money just to cover where we were at that point. One 
of the problems has been an indexing problem, but the other 
problem is participation is down.
    Mr. Kolbe. I have other questions, but because we have a 
vote and there is only two of us here, I will give the rest of 
my time to Mr. Hoyer and submit the rest of the questions for 
the record.

                        CAMPAIGN CYCLE REPORTING

    Mr. Hoyer. Thank you, Mr. Chairman. That is of concern. Let 
me go back to my three issues. On campaign cycle reporting, has 
that made a difference? Have you encountered any oppositional 
problems associated with changing committees reporting from 
both the calendar year to a pro election basis to a campaign 
cycle basis?
    Mr. McDonald. We don't really know yet, but we think it is 
going to work out well because we think we will get away from 
the kind of problems we have seen over the years where there is 
just mass confusion. It is too early to know the answer to 
that.
    Mr. Wold. I want to add, Congressman, one of our priority 
legislative recommendations is to make some technical 
amendments to the change that was made last year to conform the 
expenditure side of the reports to the reporting of 
contributions on an election cycle basis.
    Mr. Hoyer. Good. Let me say as an aside, not necessarily as 
a question, but as an observation, as you know we reported out 
of the House Administration Committee last year a bipartisan 
bill which incorporated many of the recommendations made on an 
almost unanimous or 5-to-6 recommendations by the FEC itself. I 
introduced yesterday H.R. 4037, which is the FEC Reform, and 
Reauthorization Act of 2000. I hope to work with Mr. Thomas 
who, of course, chairs our committee that sponsors the bill 
that we reported out, which was offered as a substitute for 
campaign finance reform, but which I always thought was really 
two things, one was a process bill and a substantive policy 
bill.
    I am hopeful that I can work with Mr. Thomas and members of 
the House Administration Committee in passing this legislation 
or other legislation sponsored by Mr. Thomas himself, which 
will adopt many of the recommendations you have made. I would 
ask you--I won't ask you to comment on this point in time, but 
if you would look at that and provide some suggestions for 
additions or modifications. Hopefully we can do something. I 
think there is bipartisan support for it, Mr. Chairman, and 
maybe you could also work with Mr. Thomas. I would like to have 
you look at it and talk to Mr. Thomas.
    Mr. Kolbe. Okay.

                        VOTING SYSTEMS STANDARDS

    Mr. Hoyer. Voting system standards. I note that youhave 
budgeted just under $300,000 for updating the voting system standards 
and for a conference to explain the revisions. I believe this is an 
important issue. As you know, I have been involved in this for some 
time. I am very pleased the Commission has undertaken to update these 
critical standards. When were the voting standards last updated?
    Mr. McDonald. 1990.
    Mr. Hoyer. Do you believe that a regular update of the 
standards would be valuable?
    Mr. McDonald. I believe it would be very valuable, 
Congressman, because as you know, I used to be a local election 
official. Things have changed over time in relationship to what 
is available in the marketplace. As you know, we just had last 
week, and I am not sure how that is going to work out, we had 
online voting out in Arizona. Some of it is creating great 
interest. I don't know what the ultimate outcome will be, but 
clearly one of the things that is tough for election officials 
locally around the country is not being able to turn somewhere 
and have enough information about what is available, have the 
ability to work with their colleagues in determining and 
understanding what is out there and what the pitfalls are. I 
think it is an awfully good program. I have a special interest 
because of my previous service.

                      LEGISLATIVE RECOMMENDATIONS

    Mr. Hoyer. By the way, I know you have submitted an 
additional six priority recommendations from the Commission. I 
included all of those in H.R. 4037. I am not going to ask you 
to comment on that because I don't want to take the time right 
now to do that but I did want to let you knew they were in 
there.
    Mr. Wold. We appreciate your interest and support for those 
recommendations.

                         CASE MANAGEMENT SYSTEM

    Mr. Hoyer. On case management system, I understand it 
became operational last October. Would you update us on your 
progress with full implementation of this system?
    Mr. McDonald. Well, we will have our 6-month review here in 
April. We think things are actually going quite well, but we 
are going to have to analyze where we are at the end of the 6-
month period. Basically, I think it is safe to say we are two-
thirds of the way through the process. We will have a report at 
the beginning of next month.

                              FEC WEB PAGE

    Mr. Hoyer. Obviously one of the first objectives you 
mentioned with respect to our provisions on the electronic 
filing applies here. Hopefully this is going to streamline the 
agency and make you better able to handle the workload that you 
have and become more productive. Let me ask you about your Web 
page. I note the FEC Web page has been redesigned and is much 
easier on the eye. Are you comfortable that its current design 
makes it possible for voters to quickly and easily access the 
public disclosure reports of the candidates immediately upon 
logging on to the site?
    Obviously, one of the objections to electronic filing is to 
make it instantaneously available to the voters because of the 
final analysis that what this is all about, not to just make 
sure the candidates are honestly following the law, but let's 
assume they are doing it, to make sure the voters know who is 
giving what to whom and why. You won't be able to analyze why, 
but they can draw their conclusions from who and what.
    Mr. McDonald. We are very pleased with the Web page because 
it is one of the few things in life where there seems to be a 
general consensus across-the-board that people really like it. 
I have had more people comment about this maybe than anything 
else we have done, other than some votes I have cast, and they 
have not put those quite in the same light as the Web page. But 
I think we are very pleased. You can get so much information 
out of our Web page these days, not just in terms of how much 
money is given, but resolutions of cases and advisory opinions. 
I think there is a whole host of things you can find on our Web 
page today.
    Mr. Hoyer. Mr. Chairman, I have one additional question.
    Mr. Kolbe. I think we have time. I don't have a TV here.

                     ALTERNATIVE DISPUTE RESOLUTION

    Mr. Hoyer. Alternative dispute resolution, approved funding 
for pilot program in the enforcement area for ADR. Can you 
describe your progress on that?
    Mr. McDonald. Well, I think we are in pretty good shape. We 
are getting ready to hire someone to run this program. I think 
our hope is along the lines to parallel what happened with the 
administrative fines program. Our hope is by pursuing this 
approach, we will be able to take care of routine cases outside 
of the normal wear and tear of a complaint. This will allow us 
to free up some resources in OGC, which we would like to see 
happen and make routine cases move along considerably quicker. 
We will have someone hired, I think, in the next few months, if 
memory serves me, next month, and then we will probably have a 
second person come in and work with them. So we think we are 
getting awfully close.
    Mr. Hoyer. Good. Excellent. Thank you, Mr. Chairman.
    Mr. Kolbe. Thank you very much, gentlemen, thank you for 
your testimony today, and in order to get us to a vote, we will 
quickly wrap it up and say thank you very much and the 
committee is adjourned. Saved by the bell.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                         Wednesday, March 29, 2000.

                  U.S. GENERAL SERVICES ADMINISTRATION

                               WITNESSES

DAVID J. BARRAM, ADMINISTRATOR
ROBERT A. PECK, COMMISSIONER, PUBLIC BUILDINGS SERVICE
DONNA D. BENNETT, DEPUTY COMMISSIONER, FEDERAL SUPPLY SERVICE

                              INTRODUCTION

    Mr. Kolbe. The Subcommittee on Treasury, Postal Service, 
and General Government will come to order. We expect to have 
debate this morning on supplemental appropriations and, so, we 
are going to be moving as rapidly as possible in order that we 
complete this hearing and get questions in. That is a request 
to people at the table to make their opening statements as 
short as possible.
    We are happy to welcome this morning the Administrator of 
the General Services Administration, and we are looking forward 
to your testimony on your budget. I know that Judge Roth is 
present and will be talking about the courthouse construction 
budget of the GSA immediately following this presentation by 
GSA. By any standard, the GSA budget is a very large one. Total 
obligations in 2001 are projected at $15.5 billion, but most of 
that amount is related to revolving funds that don't require 
direct appropriations. Nevertheless, Congress and this 
Subcommittee are concerned with the management of all the 
funds, with the fiscal health of the entire Government, and we 
have an oversight responsibility for all of those $15 billion 
that are being spent.
    The fiscal year 2001 budget proposal for GSA requests a 
direct appropriation of $871 million. That is $737 million 
above last year's enacted level and most of that, $682 million, 
is related to new construction and most of that, $488 million, 
is for courthouses.
    This is the first time in three years that we have had a 
budget submitted by the President that has included new 
courthouse construction. We were able two years ago, in 1999, 
to provide $462 million for construction even though the 
President hadn't requested that. Unfortunately we weren't able 
to do any last year, and each year we fall behind when we are 
not able to do that. It is important that our nation's 
infrastructure needs are met, particularly those construction 
needs related to law enforcement.
    I anticipate that there will be a number of questions from 
members about the proposed funding for courthouse construction. 
The way in which the budget request for courthouse construction 
was fashioned raises, in my mind, a number of questions. Last 
year we had, in Section 404 of last year's bill, a provision 
that prohibits GSA from using funds to develop a budget request 
for courthouse construction that one, was not based on a design 
guide approved by the GSA, courts and OMB; and second, did not 
reflect the priorities of the courts.
    In my opinion, your budget request for courthouse 
construction does not meet either of these statutory 
requirements. The way in which both of these areas--the 
estimation for specific projects and the selection of specific 
projects--were handled in the GSA budget request creates 
difficulties for this Subcommittee.
    Your budget request includes two other increases for which 
I think we need additional information. The first of these is 
an increase of $15.4 million for critical infrastructure 
protection, and the second is an increase of $8 million for the 
disposal of excess and surplus real estate. In addition, I have 
questions on the funding requested for the Presidential 
transition and for repayments related to costs incurred by the 
GSA in the relocation of the FCC into the Portals II building. 
I also take note of your recent decision to close 2 of your 4 
distribution centers.
    I hope we can get to all of those questions but some of 
them may end up being submitted for the record. That concludes 
my opening remarks. Mr. Hoyer is not here. We will hear from 
him when he does get here. So, Mr. Barram, let us go directly 
to your opening statement. As always, it will be put directly 
in the record in full and if you wish to summarize it, we will 
go directly to questions after that.
    Mr. Barram.

                    SUMMARY STATEMENT OF MR. BARRAM

    Mr. Barram. Thank you, Mr. Chairman, and good morning. Good 
morning, members of the Committee. Thank you for the 
opportunity to appear before you today to discuss our fiscal 
year 2001 budget request. You have my long statement. I 
certainly won't repeat it. I would like to make a few points 
about GSA and our budget and then I would look forward to your 
questions.
    We have a good story to tell at General Services 
Administration, where we celebrated our 50th anniversary in the 
last year and now look forward to new challenges. Let me 
introduce, first, some of the key members of our team at GSA. 
Bob Peck, the Commissioner of the Public Buildings Service is 
here; Donna Bennett, Deputy Commissioner of the Federal Supply 
Service; Sandy Bates, who will be replacing Dennis Fischer, as 
the Commissioner of Federal Technology Service; John Sindelar, 
Chief of Staff for Office of Governmentwide Policy; Bill Early, 
our CFO; Debi Schilling, our new Director of Budget; to my 
left, your former colleague, Bill Ratchford; and Martha 
Johnson, Chief of Staff.
    There are two major topics I would like to discuss today. 
The first is change and innovation. GSA has been one of the 
reinvention engines of the Federal Government during the 1990s 
and we intend to continue on this path. It isn't just 
technology, it's how you do things.
    We have many new initiatives underway in our agency. One is 
partnering with Federal agencies, like the Census Bureau. We 
are managing the massive logistics of building up, furnishing 
and then disposing of a national network of temporary offices 
for census takers. We are also partnering with the Internal 
Revenue Service, with whom we are working to plan and implement 
their four new headquarters offices and the new shared services 
function.
    Inside GSA we did something pretty special in our Public 
Buildings Service by thoroughly tying performance measures to 
budget allocations and performance awards. Our people know what 
success is and expect to be held accountable for it. You might 
want to ask Bob Peck about that during this hearing. And as you 
would expect, we are on top of new technologies and the 
Internet. We were in the forefront of efforts last year to meet 
the Y2K challenge, and we are heavily involved in a critical 
infrastructure protection program that you mentioned in your 
opening remarks.
    More than any other nation, America is dependent upon its 
information technology and cyber space. GSA has a vital role to 
play in protecting critical systems throughout the Federal 
Government. Technology and the Internet also offer 
opportunities to change the way we do business and to get a 
better deal for our customers. GSA's customers use the Internet 
to purchase a wide variety of goods and services through GSA 
Advantage!<SUP>TM</SUP>, our on-line ordering system.
    Change can also bring some tough challenges. We recently 
made the decision that you noted in what became a widely 
publicized consultation with our labor partners to streamline 
our supply distribution system by closing all but 2 of our 
warehouses.
    We will be able to minimize the impact of these closureson 
our work force by a number of means, including buyouts, and we greatly 
appreciate your Committee's support of buyout language approved in the 
fiscal year 2000 appropriation bill.
    In telecommunications, and in every product and service we 
sell, we want to give our customers the best deal available. 
Our recently awarded metropolitan area acquisition contracts 
have created the vehicles for local telecommunications savings 
of up to 70 percent, in 7 cities today, with procurements for 
13 additional cities under way. Our long distance rates, our 
airline city pair fares and vehicle leases also offer customers 
great prices and value.
    Because we are so change-driven and customer oriented, our 
business volume continues to grow as our customers take 
advantage of the value we offer them. Our total budget is $15.5 
billion, as you noted, and 94 percent of that ends up going to 
the private sector with the remainder mostly in salaries and 
benefits for our employees.
    Even though our business continues to expand, our 
employment is about 30 percent less than 1993 levels. We are, 
indeed, doing more with less.
    The other major topic I will discuss briefly today is our 
capital program for the Federal Buildings Fund. Our budget 
request, as you noted, includes a significant construction 
program at $780 million, including funding for courthouse 
construction. It also includes funds for several border station 
projects, FDA headquarters consolidation, a new ATF 
headquarters, a new United Nations U.S. Mission facility, a new 
FBI facility in Houston, as well as several advance 
appropriations. Now, I know that courthouse construction has 
been a particular concern to your Committee in the past and we 
are pleased to see funding of the new courthouses addressed.
    As in past years, we are requesting that most of our 
construction program be paid for from new appropriations to the 
Federals Buildings Fund. Our capital program also continues to 
emphasize funding for repairs and alterations, with a request 
of $720 million. As you know, more than half of our Government-
owned buildings are over 50 years old and we must have 
significant R&A programs to maintain the value and condition of 
this $33 billion asset base: buildings that belong to the 
American people. Our request will also fund recapture of vacant 
space and investments in security enhancements such as glass 
fragment retention.
    We are proud of the work that we are doing in our Public 
Buildings Service and throughout GSA. We have reduced non-
revenue producing space, achieved customer satisfaction ratings 
of 80 percent and managed operating costs per square foot at 13 
percent below private sector.
    We have also improved our management of resources in the 
Federal Buildings Fund with highly accurate revenue forecasts.
    Thank you, Mr. Kolbe and Mr. Hoyer and members of the 
Committee for all the support and guidance that you have given 
to me and the agency over the years. It has made our jobs 
easier, and we deeply appreciate the confidence that you have 
shown us in letting us manage GSA.
    Thank you.
    Mr. Kolbe. Thank you very much, Mr. Barram.
    Before we go to questions, I will call on Mr. Hoyer for his 
opening remarks.

                      MR. HOYER'S OPENING REMARKS

    Mr. Hoyer. Mr. Chairman, I apologize for being late. I 
certainly do want to welcome Administrator Barram and all the 
leadership of GSA and other personnel of GSA. GSA, I think, has 
made marked progress in terms of its efficiency of operation, 
and in terms of the dollars that we spend on construction and 
management of facilities.
    In addition, I think that they have been focused on 
reduction of duplication, obviously, one of the reasons for 
GSA's advent in the first place. I want to say that I am 
pleased to have them here, and look forward to discussing with 
them some of the Committee's concerns.

                        COURTHOUSE CONSTRUCTION

    Mr. Barram, you mentioned courthouses. You may have, I 
don't know whether anybody told you about the conversations we 
had yesterday with Jack Lew, of OMB, in terms of the level of 
construction in 7 of the courthouse projects; there are 19 as I 
understand it ready for some degree of expenditure, although as 
Jack Lew testified, many of those are land acquisition-only, 
not construction, so that perhaps we will not delay those. I 
have been very concerned and I share the Chairman's concern 
with respect to our sporadic funding of courthouse projects.
    Obviously, we are building up a backlog and that is not 
good because what that will do is build up a bow wave that will 
crash down on us with a requirement for very big dollars at 
some point in time. So, I am hopeful--thank you very much--I am 
hopeful--now I can see what you said----
    [Laughter.]
    Mr. Hoyer. I am very hopeful--I can even see what I am 
supposed to say----
    [Laughter.]
    Mr. Hoyer. Thank God for computers. The lazier my eyes get, 
the bigger the print gets. It is a great synergy. But in terms 
of the courthouses, as you know, when I started on this 
Committee, of course, deficits in the 1980s were not of concern 
to the Administration and, very frankly, not much concern to 
the Congress and we ran up great deficits, so, it really wasn't 
a problem in terms of caps or worrying about what you spent in 
this Committee or any other Committee because it just meant you 
were $10 million, $20 billion more in debt that year in your 
operating deficit.
    Happily, we are not there now and we are constrained, as we 
ought to be and we are fiscally making great progress, but at 
the same time we need to be able to continue to invest in our 
infrastructure, both in terms of maintenance and in terms of 
new construction to accommodate growing populations andassuring 
the effectiveness of our judiciary. The last point I would make, I 
don't know whether the Chairman made this in his opening statement, but 
I am concerned that we do not yet have a consensus which I think this 
Committee would like to see in terms of the parameters of courthouse 
construction as it relates particularly to the provision of a courtroom 
per judge, not senior status judge, but active judges.
    I know that Ms. Roybal-Allard will have a concern about 
that, I am sure will probably have some questions on that, so, 
I won't go into it. But it is a matter of concern because we 
have a number of studies, as you know, from Rand, from other 
places and I think it was the Rand study that said, frankly, we 
don't have enough information now to make a hard judgment and I 
think we need to get there.
    Mr. Chairman, I know I have taken more time than I should 
have but I thank you for giving me this opportunity.
    Mr. Kolbe. Thank you very much, Mr. Hoyer.
    Let us get into questions and we will try to adhere, I will 
adhere strictly to the five-minute rule.

     SECTION 404, REQUIREMENTS FOR COURTHOUSE CONSTRUCTION REQUESTS

    So, I am going to get right into the courthouse 
construction. As I mentioned in my opening remarks, the last 
three years we haven't seen anything in the President's 
request. The middle of those two years, 1999, we were able to 
put some money in there. Now, you would think with the 
President's request including money for courthouse 
construction, we wouldn't have any real issues but that isn't 
the case. And the problem is that we have got a set of 
conflicts. I am going to make this point with the judges, but 
the irony is that the judges who supposedly arbitrate in our 
society are not here in that capacity. Congress is here in the 
position now of trying to arbitrate between the Judicial Branch 
and the Executive Branch over the priorities and the guidelines 
for courthouse construction.
    So, I want to get into that by asking you, is the budget 
request that is submitted by the President in compliance with 
Section 404 of Public Law 106-58, the appropriations bill of 
last year?
    Mr. Barram. The whole subject that you are raising is 
complicated. So, I am going to let Bob Peck answer a lot of 
these, all right?
    Mr. Kolbe. Fine.
    Mr. Barram. Because we have talked about it a whole lot and 
you have identified the real issue. I guess the answer to that 
is yes and no. So, let me say that it is yes and no, and let's 
talk about it until you are comfortable that we have fully 
answered your question.
    Mr. Peck. Mr. Chairman, In this sense, the answer is, yes. 
The Committee asked us not to spend money to develop a plan 
that didn't meet the design guide. The budget request, which we 
submitted to OMB, met that requirement. We did submit a plan 
which met the design guide requirements. The recommendation 
from the Administration doesn't meet the design guide.
    Let me be clear about what that means. The design guide 
says that there should be one courtroom for every active judge. 
When you read it carefully, it looks like that is a pretty hard 
and fast rule--it doesn't say no more than one judge per 
courtroom per judge and it doesn't say any less. So, we don't 
want to quibble about that. We think that is the requirement.
    The Administration's proposal for the budget this year 
suggests that there be a rule established of two courtrooms for 
every three active judges. That is the first part of Section 
404. I hope that is a clear answer.
    Number two, Section 404 also asks that we prepare a plan 
that makes use of a courtroom utilization study provided by the 
courts. I am not quite sure what that referred to because there 
has been a little bit of confusion. The courts did give us a 
courtroom utilization study. What their study said was that for 
each project we were considering, here is how many courtrooms 
we would need to meet the design guide requirement. As you 
know, in part at the urging of Congress in past years, the 
courts have begun a different kind of courtroom utilization 
study, a study to determine whether we actually need one 
courtroom per judge.
    We are told that that study is available in draft but has 
not yet been released and I think you might talk to----
    Mr. Kolbe. Excuse me, let me interrupt you because time is 
very limited here. The Section 404 says that you won't transmit 
to us a budget request for 2001 that does not meet the design 
guides standards for construction as established and approved 
by the General Services Administration, the Judicial Conference 
of the United States, and the Office of Management and Budget. 
Is such a request in place by the three?
    Mr. Peck. Well, actually, OMB is not a party to the design 
guide, and GSA is a consultant. So, it is the court's design 
guide.
    Mr. Kolbe. So, the law is not complied with?
    Mr. Peck. It is absolutely true. The request that the 
Administration sent up does not comply with the design guide.
    Mr. Kolbe. No. You don't have a design guide that is 
approved by all three. So, there is no common----
    Mr. Peck. That is correct. There is no design guide 
approved by all three.
    Mr. Kolbe. That is the question I was trying to get at. On 
courtroom sharing, then, for the request that you have 
submitted, did you use the U.S. Courts' design guide as your 
model, including the courtroom sharing policy for developing 
the request?
    Mr. Peck. Again, GSA did use the court's design quide as a 
model in submitting its request to OMB, but the 
Administration's submission does not adhere to that design 
guide.
    Mr. Kolbe. To the design guide?
    Mr. Barram. Yes, the courtroom sharing.
    Mr. Kolbe. On the courtroom sharing. I am talking about 
courtroom sharing.
    Mr. Peck. On the courtroom sharing----
    Mr. Kolbe. Your request does conform to those?
    Mr. Peck. Well, the request that we submitted to OMB did, 
but that is not the request that you have seen.
    Mr. Kolbe. No, no, I don't mean the request. I mean the 
request that you submitted to OMB. But I see some differences 
on the sheet between your revised request and what the courts 
have here.
    Mr. Peck. That is correct. We submitted an original 
recommendation which was in agreement with the courts. There 
were three requests. First, we made a submission based on our 
discussions with the courts. Also, we made a submission to OMB 
that was called a departure list--a list of courthouse projects 
whichadhered strictly to the design guide in this sense: The 
design guide says that a judicial council, a circuit council of the 
courts, can approve waivers to the design guide. So, that, for example, 
you might have more courtrooms for senior judges than the design guide 
would strictly require, or an additional special proceedings courtroom 
which is larger than the others. Our initial request to OMB included 
those kinds of things.
    Our second submission to OMB, an appeal, was called a no-
departures program from the strict design guide requirements.
    The third submission was in the final President's 
submission of the budget, which went to the sharing scheme of 
two courtrooms for every three judges.
    Mr. Kolbe. I have got--my time is already up--I have got 
lots more questions here. Let me just make one last question on 
going back to the guideline required by Section 404. It is in a 
general provision for the General Services Administration, 
which would put the onus on you to do so. Can you tell me 
whether or not you have begun a process, even? It says you 
weren't supposed to submit a budget that wasn't done with a 
guideline-approved, that was agreed upon by all three of the 
agencies I just mentioned: OMB, yourself, and the courts. Have 
you begun a process of trying to get that agreement?
    Mr. Peck. We have had a couple of discussions with the 
courts, but the short answer is that we have been waiting for 
the courts utilization study, which they have been doing this 
year, so that we could have discussions with them based upon 
it. That study will be the factual basis upon which we need to 
base our discussions.
    Mr. Kolbe. Okay. Just as an example of how very contentious 
and difficult these issues are, just before the hearing began, 
Congressman Leach gave me a letter relating to the request for 
his courthouse in Cedar Rapids. It makes a compelling case 
about the need for it, and how long this has been in the works, 
and the shortage of space. And this is the difficulty this 
Committee has in trying to balance these different priorities.
    Mr. Hoyer.
    Mr. Hoyer. Thank you very much, Mr. Chairman.
    I won't ask questions about the courthouse construction 
because our time is very brief. We have got a rule on the floor 
that is coming up. But, obviously, we share the concern and, 
Mr. Chairman, as you recall, what I referenced when I was 
talking about consensus is that there is not agreement here. 
And in fairness to the Committee, the Chairman has been an 
extraordinary leader in cuing to the priorities that were 
submitted by GSA and the Administrative Office of the Courts, 
without reference to political consequences of those particular 
projects. That is an extraordinary achievement that the 
Chairman has done and I admire him for it, but in order for us 
to sustain that we are going to have to have a consensus in 
effect so that we don't have argument intra-administration, I 
would think. Not that the Administrative Office of the Courts 
(AOC) is in the Administration; it is not. It is an independent 
branch of Government. I understand that. But the fact of the 
matter is that OMB submits the budget, and you submit it to 
OMB.
    Mr. Chairman, you didn't ask for but I presume you are 
going to submit to us your request that was made to OMB.
    Mr. Peck. I think we have already submitted that to staff.
    Mr. Kolbe. That is it.
    Mr. Hoyer. Okay. So, the $36.2 million for the Los Angeles 
courthouse. I notice the Administrative Offices of the Courts, 
in revising its numbers, almost uniformly, not absolutely, 
submitted the same numbers they had submitted originally.
    Mr. Peck. I think that is correct.

         PROPOSED EXECUTIVE ORDER ON TELECOMMUNICATIONS ACCESS

    Mr. Hoyer. That does not surprise us. I say that as an 
aside, but we will have to talk about that. Let me ask Mr. Peck 
a question. It has recently been brought to my attention that 
the proposed Executive Order is being circulated that would 
require owners of certain buildings with Federal Government 
tenants to allow all telecommunications providers use of space 
in such a building to install and maintain telecom equipment--
as you can imagine, we are hearing a lot about this--and would 
require the Government's lease to contain provisions to that 
effect.
    Did the GSA request this Executive Order; and, if so, what 
was the rationale?
    Mr. Peck. We did not request it.
    Mr. Hoyer. All right. Can you comment on it?
    Mr. Peck. Yes, sir. I have a personal opinion on this which 
doesn't count, but there is some concern on the part of what 
are called the alternative telecom providers or the competitive 
new providers that they don't have access to private sector 
buildings. If you ask the building industry, they will tell you 
that they are trying to provide access the same way they do 
business normally. If people come to them, they will negotiate 
a deal, and they claim they want to have alternative 
telecommunications available to their tenants.
    The proposed Executive Order states that when GSA signs a 
lease in a private building, we would require the building 
owner to agree to provide access to all comers on a 
nondiscriminatory basis. Our concern, from a strictly GSA 
viewpoint, is this: We lease space in about 6,400 private 
sector buildings. In 35 percent of those buildings we don't 
even lease 50 percent of the space. So, we think that our 
leverage is not so strong in telling building owners to agree 
to this kind of a condition, which the building owners tell us 
they don't like.
    If our leverage is not so strong, that generally means that 
when we go out on the market, with this kind of a requirement, 
we believe that one of two things will happen.
    First, in some markets, we think that some landlords or 
building owners just won't offer to lease to the Government. 
The less competition we get, we can pretty much assume that, on 
average, our lease rates will be higher.
    Second, there are cases in which we think that if they do 
offer to lease to us, they will tack on a charge, because an 
Executive Order like this comes with some kind of sanction in 
case they are found not to be in compliance. Most building 
owners are then going to say, ``All right, I am going to have 
to hire attorneys, and go through an appeals process.''
    We are concerned, therefore, that we would get less 
competition and possibly have higher rental rates if we 
implement that requrement. One final thing is that we have 
worked really hard to cut out of our leases as many things as 
possible that make our leases look different from the private 
sector. We want to be in the market just like the private 
sector owners to the maximum extent possible. To us, this 
proposal would complicate ourlives and tell the people who 
lease for us that they have got yet another hoop they have to make 
people jump through that they are not used to in the private sector.
    Mr. Hoyer. I had other questions related but I think that 
your answer was a pretty comprehensive one and covered those. I 
may submit them and if you think you haven't answered all those 
issues. Because I am sure that is going to be--any time you 
deal with a telephone or telecommunications on these buildings 
because their numbers are so large it is a huge issue for us.
    Mr. Barram. Let me just add one thing. Go ahead.
    Mr. Peck. And I would just note. This is the GSA position 
that we have communicated. It is not necessarily the 
Administration's final position on this issue.
    Mr. Barram. What I was going to say was that we spent a lot 
of time talking with people who feel the other way so this is 
not a 99-1 kind of thing. It is more complicated and I think 
Bob has done a good job of explaining it. But, you know, there 
is a reason why you want to try to help emerging 
telecommunications companies get access so they can be more 
competitive.
    Mr. Hoyer. Well, perhaps I will submit them for the record, 
and if you think you need to amplify your answer further, 
please do so. I agree with Mr. Barram, I think it was an 
excellent answer.

                     AFRICAN AMERICAN BURIAL GROUND

    African American burial ground. Congressman Rangel, I know, 
is very interested in this. In 1991, as you know, it was 
discovered during the excavation of a new Federal building at 
Foley Square in lower Manhattan. In 1992, $3 million was set 
aside from the project construction to memorialize their 
heritage. I understand that much of the work has begun but 
additional funding is needed to complete the work. Can you 
elaborate on this for me?
    Mr. Peck. We are not quite sure how much more funding is 
needed, but, to date, we have spent about $21 million on 
excavation, on moving the remains and having them 
scientifically studied at Howard University, and on 
preparations to build an interpretative center on the site. I 
am told that our estimate is that it will require another $10.2 
million to complete the job.
    Mr. Hoyer. That is a total of $33.2 million?
    Mr. Peck. That is $33.2 million, yes, sir.
    Mr. Hoyer. Mr. Chairman, I don't know how many more rounds 
you are going to get in, but Mr. Wolf, I am sure----
    Mr. Barram. Mr. Hoyer, Thurman Davis has spent an awful lot 
of time on this, so, he would be happy to talk to you about it 
in any more detail you need.
    Mr. Hoyer. Terrific. I would be glad to talk to Mr. Davis 
about it.
    Mr. Wolf [presiding]. Mr. Goode.
    Mr. Goode. Thank you, Mr. Chairman.

                   DISPOSAL OF SURPLUS REAL PROPERTY

    I noticed that you are asking for an increase of $8 million 
for the disposal of excess and surplus real estate. Can you 
elaborate on that and just tell me what you want to dispose of?

               PROPERTY DISPOSAL--ARMY AMMUNITION PLANTS

    Mr. Peck. There are a couple of things. For example, we are 
disposing of about eight Army ammunition plants around the 
country. We need to do some upfront work on these plants before 
they are available for disposal, such as environmental studies 
and working with the communities to come up with redevelopment 
plans. And for those properties and others we don't yet know 
about, because agencies can come to us at any time and say, 
here is----
    Mr. Goode. Where are these eight Army facilities?
    Mr. Peck. One is in Tennessee. I will get you the list. 
There is a volunteer Army ammunition plant. There are seven 
others, including Badger, Wisconsin, Iowa, and Kansas.
    [The information follows:]

                  ARMY AMMUNITION PLANTS FOR DISPOSAL

    1. Badger, Baraboo, Wisconsin.
    2. Kansas Army Plant, Parsons, Kansas.
    3. Sunflower, DeSoto, Kansas.
    4. Volunteer, Chattanooga, Tennessee.
    5. Longhorn Army Plant, Marshal, Texas.
    6. Forest Glen, Montgomery County, Maryland.
    7. St. Louis Army Ammo Plant, St. Louis, Missouri.
    8. Charles Melvin Price Support Center, Madison City, 
Illinois.

    Mr. Goode. You all are just going to get rid of those 
facilities and what, give them to the local governments or what 
are you going to do with them?
    Mr. Peck. Well, under the law there are lots of different 
ways we can go. For example, there are provisions under which a 
community can claim them for no charge if they use them for 
certain public purposes like education or security,prisons, and 
some health purposes. If they aren't claimed for that, then we would 
put them up for auction. That is the general procedure.

         PROPERTY DISPOSAL--NATIONAL GROUND INTELLIGENCE CENTER

    Mr. Goode. Let me ask you, what are you going to do in 
Charlottesville with the National Ground Intelligence Center. 
The Department of Defense had it, and they are going to move 
out in a few months. We are very concerned in Charlottesville 
of what the fate of that building is going to be.
    Mr. Peck. I know, Congressman. The Army, through the 
Military Construction Appropriation, received an appropriation 
to put the National Ground Intelligence Center in an Army site 
in an Army building. They have told us they no longer have a 
use for the current building. Part of our role in GSA is to be 
a broker inside the Government. We have looked around to see if 
any other Federal agency might need the property. We haven't 
found either a tenant that would come to GSA normally, or any 
other agency that wants it. So, we are beginning the process of 
disposing of the property, and we have begun talking, as we 
always do, with city officials in Charlottesville, to talk 
about what it is that they might want to do with the property. 
We don't yet have a plan, and I can't yet tell you what the 
process is precisely going to be on that one. But, obviously, 
we will be in touch with you and talk about it as we go.
    Mr. Goode. And some of your people have met with the city 
officials but we are very concerned that the building will be 
vacant, or--we would like to see another Federal agency in but 
it doesn't look like it at this time.
    Mr. Peck. We had a hunch you might ask this question, and I 
can tell you we have looked more than once to see if we could 
find a Federal tenant and haven't found one yet.
    Mr. Goode. But you would be open to doing like you are 
going to do on those other eight facilities in Tennessee, 
Wisconsin, Iowa and some other places, that maybe letting the 
locality have it if they----
    Mr. Peck. If they qualify under the law. Under the Property 
and Administrative Services Act of 1949, there are a whole slew 
of provisions under which a community can claim them for a 
reduced price, which can often be down to nothing.
    Mr. Goode. Thank you, Mr. Chairman.
    Mr. Wolf. We should probably stay three more minutes. Ms. 
Roybal-Allard.
    Ms. Roybal-Allard. Thank you very much.

                   FEDERAL COURTHOUSES IN LOS ANGELES

    Mr. Hoyer was correct in that I have a deep concern about 
the situation in Los Angeles with regards to the courthouse. 
Right now the existing facility is a very old courthouse built 
in 1938 and because of the fact that it lacks the necessary 
space, they have had to divide their operations between the 
original courthouse and a facility that is several blocks away.
    As you are well aware, this creates not only 
inefficiencies, but the U.S. Marshal Service has said that it 
is creating a ``life threatening situation.'' As a result, and 
in responding to the seriousness of this situation, GSA 
originally requested $36.2 million in funding for site 
acquisition and design of a stand-alone, 51-courtroom 
courthouse in Los Angeles. OMB not only reduced the amount by 
several million but actually changed the plan for the 
construction of the courthouse.
    Could you please describe the process that GSA followed to 
reach the conclusion that a stand-alone courthouse is the best 
solution to the crisis in Los Angeles?
    Mr. Peck. Yes, Ma'am. Judge Hatter mentioned that he has a 
file that goes back to 1980 on this particular project. There 
have been a lot of studies. We have looked at various ways of 
constructing a courthouse because no one questions the need for 
a new courthouse in Los Angeles. You have described well the 
current situation, which is not tolerable.
    We have talked mostly about whether there should be one new 
building that includes all of the courtrooms for the district 
court or--and this is what we have now recommended--whether we 
continue to use courtrooms in the Roybal Building and construct 
a companion building, which means a building that may be 
attached, but probably located across the street. We estimate 
that building a companion building and continuing to use the 
Roybal Building as a courthouse saves about $85 million in 
total upfront costs on the project design and construction.
    I think that is the fairest way to describe it. There are 
some additional savings because then we went to the sharing 
courtroom model and we reduced the number of courtrooms in the 
building, which further reduced the cost.
    Ms. Roybal-Allard. Now, to leaving the courtroom sharing 
issue, aside for a little bit, you mentioned that there is an 
upfront savings associated with building a companion facility 
rather than the stand-alone courtroom house. However, your 
staff informed me that if we look at the 30-year projections 
that there is no savings from building a smaller building 
annex; is that correct?
    Mr. Peck. In the General Services Administration, we try to 
view a project the same way as a private sector developer would 
view it. We look at the rental stream versus the cost of 
operations over time. Viewing the project this way, it looked 
to us like a stand-alone building and the companion building 
came out about the same.
    Mr. Wolf. Excuse me. Maybe we should--you can begin when we 
come back. We will be done in about five minutes. And then you 
can----
    Ms. Roybal-Allard. Is my time up or do I have more time?
    Mr. Wolf. No. You still have a few more minutes. But I 
didn't want to miss the vote. So, we will be right back.
    Ms. Roybal-Allard. Okay. That is fine.
    [Recess.]
    Mr. Kolbe. The Subcommittee will resume.
    I will go to questions from Mr. Price.

                 RESEARCH TRIANGLE PARK--NORTH CAROLINA

    Mr. Price. Good morning, welcome. I am pleased to have all 
of you before the Subcommittee. Let me say just a word, first, 
about a matter that we are already working together on that I 
just want to highlight here briefly, and that has to do with 
some of the implications of the move soon to come of the 
Environmental Protection Agency from 13 rented locations into a 
state-of-the-art facility in Research Triangle Park, North 
Carolina.
    It is finally done. It is 9 years in the funding with the 
cooperation of a lot of people in this room. Now, this is a 
laboratory and because of that it is not mainly fundedthrough 
General Services Administration, although I must say that at an early 
point with the cooperation of Mr. Hoyer, when he was Chairman, we did 
fund some of the planning and design work through the General Services 
Administration. And if you see that building and the way it is coming 
up and how complicated the infrastructure of that building is you 
understand why the planning and design work took upwards of $23 
million. Anyway, it is mainly funded in the EPA budget.
    Starting next year, EPA will begin moving employees from a 
dozen locations into this facility, and it is going to be a 
great thing for the efficiency of the agency and the quality of 
the research they do. But it does have a downside for downtown 
Durham, in my district. Much of the space that EPA previously 
had leased is in downtown Durham, and I know this 
Administration has made a commitment to locate Federal offices 
in downtowns, many of which are in dire need of revitalization. 
Durham is one such case.
    The EPA presence in downtown Durham has been an economic 
anchor that is going to be sorely missed and, so, I just want 
to make note here that we have been working with your Atlanta 
office about the possibility of locating other Federal offices 
in some of these downtown spaces, trying to see what the 
options are. Your Atlanta folks have been very helpful. We have 
met with them. They have met with the people who are involved 
in managing these locations. So, I want to thank you for GSA's 
commitment to downtown America and to ask that you continue to 
work with the Durham Chamber of Commerce and with our office to 
try and locate some Federal agencies there, particularly in the 
spaces being vacated by the EPA.
    Mr. Peck. Mr. Price, on behalf of the buildings people I 
just want to thank you. It is nice to be complimented, and, 
yes, that region and everyone at GSA is working hard on the 
downtown location policy across the country. I know they have 
talked to your staff about this, and we will continue to try.
    Mr. Price. Good. Well, we look forward to working with you 
and, of course, the critical time is going to come in the next 
few months, as we prepare for this major move.

                              1122 PROGRAM

    Let me now turn to the 1122 program. At last year's 
hearing, five members of this Subcommittee asked, as you may 
recall, about the so-called 1122 program, which was designed to 
provide State and local law enforcement access to counter-drug 
equipment on the Federal Supply Schedules. A program that is 
very good in its purpose had gotten a bit out of bounds in the 
view of some of us, and we expressed concern about the extent 
to which the program had been expanded beyond Congressional 
intent to include equipment that simply had nothing to do with 
fighting the war on drugs.
    Following that hearing, we received notice that GSA had 
decided to scale the program back to the 10 schedules which it 
had originally included. Can you confirm that the program is 
now being administered with only those 10 schedules?
    Mr. Barram. Yes.
    Mr. Price. Good. Well, in information provided for the 
record you indicated that there had been roughly $3 million in 
1122 sales since inception of the program in fiscal 1996, over 
$1 million of that amount was attributed to year-to-date totals 
for fiscal 1999.
    Do you now have the final totals for 1122 sales in fiscal 
1999 and year-to-date totals for this year?
    Mr. Barram. We do. Fiscal 1999 was $4.259 million, in GSA. 
DLA was another $113,600, and the Department of the Army was 
another $174,000. Do those numbers jive with what you have? Do 
we know this year so far?
    We don't have numbers for this year with us.
    Mr. Price. All right. So, the total for fiscal 1999 is?
    Mr. Barram. That is $4.259 million.
    Mr. Price. So, that would push the total from the inception 
up to $7 million range, something like that; is that correct?
    Mr. Barram. Does that sound right?
    Ms. Bennett. That is in the ball park.
    Mr. Price. So, that does indicate a huge surge in the 
expenditures under that program in fiscal 1999 and presumably, 
that would reflect the policy which has now been corrected.
    Mr. Barram. But it is the 10 schedules, the 10 original 
schedules. And that is what we did in fiscal 1999.
    Mr. Price. With the 10 original----
    Mr. Barram. But maybe not for all of 1999. We probably 
didn't get it all because we didn't change it until after this 
hearing last year. So, we had half a year maybe at the most. 
So, half of fiscal 1999 was only the 10 schedules.
    Mr. Price. All right. But in any case, it has been 
corrected.
    Now, I understand the Senate Armed Services Committee asked 
GAO to review the 1122 program last fall. That report hasn't 
yet been issued but you indicated for the record last year that 
you were on your own undertaking a thorough review of the 
program. I wonder if you could update us on that. What have you 
done in that regard to ensure that the current administration 
of the program, the ongoing administration is consistent with 
Congressional intent?
    Mr. Barram. Donna Bennett is the Deputy Commissioner of the 
Federal Supply Service.
    Mr. Price. Good, thank you.
    Ms. Bennett. Following our discussion last year, we 
reviewed with staff the decisions that had been made that led 
to the extension. We discussed with them the misunderstandings 
or misperceptions that those actions had created and agreed 
that we would simply go back to our original practice, and that 
there would be no further discussions of expanding the program. 
We are on occasion approached by State and local Governments 
who would, nonetheless, like to see the 1122 program expanded, 
and our position is very firm on this, that we cannot. We 
understand that the intent is that it not be expanded, and we 
will not expand it.
    Mr. Price. So, as far as--let me make sure I understand 
you. Your position is that the change in policy or the 
reversion to the previous policy that you have carried out 
addresses the intent of the proposed review and no further 
review is underway?
    Ms. Bennett. That is correct.
    Mr. Price. All right. Thank you.
    Ms. Bennett. And, if I may add, I believe that at the time 
that we reported back to you after our discussions of last 
year, that we made a commitment that if there were to be at any 
point in the future, consideration on behalf of customers who 
have requested expansion, that we would not take a unilateral 
action to expand without coming back to you.
    Mr. Price. There would be that kind of consultation.
    Ms. Bennett. Yes.
    Mr. Price. I understand that and I do think that is the 
correct approach and I thank you for it.
    Thank you, Mr. Chairman.
    Mr. Kolbe. Thank you. We will go to a second round and we 
will go back to Ms. Roybal-Allard to finish hers and Mr. Wolf, 
if he is able to get back here.

                        COURTHOUSE CONSTRUCTION

    Back on the courthouse construction here. You said that 
your submission conformed to the Judicial guidelines, but the 
revised request does not; is that not correct?
    In your final submission, you do not adhere to the Judicial 
guidelines?
    Mr. Peck. That is correct.
    Mr. Kolbe. Okay. What are the differences?
    Mr. Peck. The differences----
    Mr. Kolbe. Specifically.

                           COURTROOM SHARING

    Mr. Peck. Okay. The differences are on various projects 
where we have reduced the number of courtrooms. We have taken a 
look at all the courtrooms available in cases where there is an 
existing building. When we are building a new one, we have 
added up the number of courtrooms and said that the goal should 
be to provide two courtrooms for every three active judges. We 
would then continue with the design guide requirements on 
senior judges--those who are either retired or semi-retired.
    Mr. Kolbe. So, you are using a courtroom sharing?
    Mr. Peck. Yes, sir.
    Mr. Kolbe. And that courtroom sharing decision is based on 
what?
    Mr. Peck. Well, it is difficult to get hard evidence on any 
of this.
    Mr. Kolbe. Well, that is my concern. I mean we really don't 
have any hard evidence. I mean, I am inclined to agree with you 
on the courtroom sharing, but we don't have any evidence, do 
we?
    Mr. Peck. Well, we are between a rock and a hard place on 
this. All of us in GSA and in the Administration have said for 
several years that it appears to be possible to share some 
courtrooms. The Administration depended on some numbers----
    Mr. Kolbe. If I may interrupt, isn't the Seattle design, 
doesn't the courts' submission of that anticipate courtroom 
sharing? Am I correct?
    Mr. Peck. Yes, sir. The judges in----
    Mr. Kolbe. So, you have judges in one place that are 
willing to share?
    Mr. Peck [continuing]. Agreed to share. And other judges 
have shared in part just because of the facts of their 
situation, which are, there aren't enough courtrooms to go 
around where the number of judges has expanded.
    The OMB----
    Mr. Kolbe. Whoops. Stop right there.
    Mr. Peck. Okay.
    Mr. Kolbe. So, have you looked at that? Has anybody done a 
study to find out whether or not justices suffer because we 
haven't been able to schedule trials in those places?
    Mr. Peck. Well, this is where we are. If I could just go 
back for a second. The Administration position is based on a 
GAO study--admittedly not a scientific study--several years ago 
that looked at courtroom utilization and said that in no case 
did they find more than 65 percent of the courtrooms utilized. 
They said that if a courtroom was utilized at any point during 
the day, it was counted as used.
    So, I think, OMB therefore said 65 percent, 67 percent--it 
is a two-thirds scheme. This year the courts did commission a 
study. We all--I think this Committee and the authorizing 
committees as well--have urged the courts to do a study on 
courtroom utilization to answer the very question you ask: 
Where there is sharing, is it more difficult to administer the 
system of justice? I think you have to ask the courts. Again, 
we are in a tough position second-guessing how you run the 
administration of justice or a courthouse.
    I do have a suggestion. I think Mr. Hoyer asked a fair 
question when he said the Judicial Branch hasn't been able to 
solve this, and we are asking the Legislative Branch to do it. 
I think you said that, too.
    And I think that one thing we really need is to get the 
study from the courts as soon as we can.
    Mr. Kolbe. Well, we will ask them about that.

               PRIORITY LIST FOR COURTHOUSE CONSTRUCTION

    Let me just ask, again, because my time is limited here. Do 
you agree with the courts' priorities in terms of the listing 
as to which ones, the order that they are in?
    Mr. Peck. Yes, sir. And we have strictly followed that.
    Mr. Kolbe. You strictly followed that?
    Mr. Peck. Yes, sir. I know it doesn't look like it----
    Mr. Kolbe. It doesn't look like it.
    Mr. Peck [continuing]. When you go down the list. 
[Laughter.]
    Mr. Kolbe. Not with regard to Springfield where you put 
zero in and they still have it in there.
    Mr. Peck. Right. Well, here is the difference. We took out 
Springfield and Eugene, Oregon, simply because in fiscal 2001 
we won't be ready to begin construction on both of those.
    Mr. Kolbe. But surely you told the courts that?
    Mr. Peck. Yes, sir.
    Mr. Kolbe. Why did they persist in putting it in? I guess I 
will ask them that, but why did they persist in putting it in?
    Mr. Peck. Well, here is the short answer. If the funding is 
made available, we think we will be ready to build those in 
fiscal 2002. I suspect that the courts--you will have to ask 
them--figure that once the money is available, it remains 
available and, so, the sooner you get it, the better.
    For us, we are only asking for funding for those projects 
that we think that we can actually get underway in that fiscal 
year.
    Mr. Kolbe. So, that was the case also with Fresno; is that 
correct?
    Mr. Peck. Yes, sir. That was the case.
    Mr. Kolbe. There is nothing in your material here which 
says in the case of Springfield, late start, can't obligate.
    Mr. Peck. Right.
    Mr. Kolbe. You don't have anything on Fresno. Is it the 
same thing there, you can't obligate it?
    Mr. Peck. I am going to be perfectly candid. On Fresno, at 
the time we submitted the budget, we didn't think it was going 
to be ready for construction. The design has moved faster than 
we thought. We could conceivably obligate for construction in 
fiscal 2001 on Fresno, I believe.That information became 
available after the budget.
    Mr. Kolbe. So, just to clarify. The only case where you do 
not follow the courts' priorities is where in your estimation 
you are not going to be able to obligate or start the project 
in the coming fiscal year?
    Mr. Peck. That is right, sir. OMB established an overall 
limit within the discretionary budget for how much the 
Administration was prepared to spend on courthouses, and that 
determined our cut-off point. So, you will notice that there 
are a number of site and design projects which are not funded, 
beginning with Buffalo, New York, and running down through the 
list. Those are also not funded because there just wasn't 
enough money under the OMB limit.

                      LITTLE ROCK COURTHOUSE ANNEX

    The one exception to that--I want to be clear on this 
because I know people have asked about it--is Little Rock, 
Arkansas.
    Mr. Kolbe. Why Little Rock?
    Mr. Peck. Little Rock is the exception because all the 
others are sites and designs for which we haven't spent any 
money--just haven't gotten started. We actually got funding for 
design of Little Rock some years ago. We have gotten into it, 
we have increased the scope of the project, and, so, we need a 
little more money to finish the job.
    Mr. Kolbe. So, this is basically a redesign or an addition 
to the design?
    Mr. Peck. Yes, sir.
    Mr. Kolbe. Okay. My time is up here, but I still have more 
questions on this and I have some questions on transition. We 
will go to Mr. Wolf for his first round and back to you for a 
second round.
    Mr. Wolf?
    Mr. Wolf. Thank you.
    Welcome. I have two questions, one to Mr. Peck and one to 
the Administrator.

                     DRUG ENFORCEMENT AGENCY LEASE

    You are aware of the problem on the Drug Enforcement Agency 
(DEA) lease, and I understand that things are moving along and 
that the September 1 date will be met. Do you want to kind of 
bring me up to date on where we are?
    Mr. Peck. Yes, sir. For the record, we will meet the 
September 1 date. And I want to say to you what I have said to 
Congressman Moran and Congressman Davis and that is, we made a 
mistake on this and put the developer, the owner of the 
building, in a tough position. It is really unfortunate because 
our leasing program is really doing great things and this gives 
it a black eye.
    We will move the DEA out by September 1st to an interim 
location. And then they will be in a permanent location in 
about a year or a year-and-a-half later.

                                TELEWORK

    Mr. Wolf. Well, I appreciate that and I just wanted to 
thank you for that.
    Mr. Administrator, we have pushed in the Committee and Mr. 
Hoyer has been really a strong ally on a lot of family-friendly 
things for Federal employees. There was a study by George Mason 
University showing that Friday has lighter traffic than any 
other day of the week. You have noticed that. Most people call 
it the Friday effect.
    Mr. Barram. I notice it is mainly attributable to when you 
are in session. [Laughter.]
    Mr. Wolf. That may have some bearing. I hope that won't 
come out of my time. [Laughter.]
    But that could be. But we have counted the cars on Monday, 
Tuesday, Wednesday, and Thursday. We have also counted them on 
Friday, and there is a 2.5 to 4 percent difference. And George 
Mason has done a study showing that for every 1 percent of the 
people that we get to telework we reduce traffic congestion by 
3 percent. So, if we get 3 percent of the people to telework we 
basically get to beyond the Friday effect every day and we need 
the Woodrow Wilson Bridge and we need to widen I-66 inside the 
Beltway and we need to extend Metro. I am for all those things.
    But we really need to promote telework. Also the study 
showed that the productivity of people that are teleworking is 
as high and in some respects, frighteningly so maybe, even 
higher, also people who have handicaps, different things.
    There is an Executive Order that has been laying around for 
months. I put an amendment into the Appropriation bill which 
somebody told me may be knocked out today on a point of order, 
which would really be disappointing. This should be relatively 
noncontroversial.
    For instance, in my State, Senator Robb has the same bill 
in that I have. Former Governor Allen, who is running against 
Senator Robb, is in strong support of this. He has contacted me 
urging me, he is writing people, urging that they do it; on the 
House side, I don't speak for Mr. Hoyer, but Mr. Hoyer, Mr. 
Moran and others. It should be a noncontroversial issue. Since 
the whole telework and the telecommuting centers have been 
under your jurisdiction, I would ask that you weigh-in and help 
us to resolve this issue. I don't know if there is a political 
thing. I wrote the White House and they wouldn't even answer. I 
couldn't even get an answer.
    And I am not a particularly partisan person. I would have 
to say I am not a partisan person. This ought to be done. 
Because we are at gridlock. You had a problem on I-295 today 
over there and this ought to be done this week. And I just ask 
you, you don't have to kind of--I mean I am not grilling you, 
that is not the purpose of this--but since you are the so-
called advocate for, if you would go back and ask the 
Administration to sign this Executive Order, which DOT has 
drafted, it is on the President's desk, by the end of the week. 
And if you have any comments about it. But we are reaching 
gridlock in this region and this could almost solve a lot of 
the problem.
    Mr. Barram. I am not sure what the Executive Order says. I 
thought about this a lot but----
    Mr. Wolf. It says that those who have positions in the 
Federal Government will be permitted to telework one day a 
week. It also gives a Metro check, a financial advantage to the 
Federal employee to use the Metro. I mean we all paid a lot of 
money for the Metro, and more people should use it. It also has 
van pools. You also have a policy to relocate Federal agencies 
by Metro stops.
    It also gives preference to car pools parking in Federal 
buildings. It really is kind of your issue. It is your issue, 
it is OPM's issue and I don't know how DOT----
    Mr. Barram. I mean I feel at least half again more 
passionate than you do about the subject, believe me.
    Mr. Hoyer. Don't overstate the case. [Laughter.]
    You have not seen Mr. Wolf's passion which ishard for any 
of us to replicate much less surpass.
    Mr. Barram. Then I feel as passionate as you do. 
[Laughter.]
    It is way beyond my understanding why the culture of the 
Federal Government isn't changing more rapidly toward basically 
allowing anybody to telework at any time he or she thinks they 
can be more productive doing it.
    And I have been in all kinds of discussions and we have 
been trying to lead the whole Federal Government in this. But 
there are still lots of people who think if you are not in the 
seat you are not working, which means that somebody just came 
to the job, did not necessarily wake up that morning to get 
results. And you have to change your whole paradigm, too, 
thinking about my job as a manager. If I have 10 people working 
for me, I have got 10 people who are supposed to get some 
results; not who are just supposed to be in the office.
    Mr. Wolf. Well, that is what this Executive Order does. It 
mandates it and it is a nonpartisan or bipartisan thing. I 
would just ask you if you could go back to the White House 
today and ask and give Mr. Hoyer--because Mr. Hoyer's district 
and mine are kind of facing the same problems--some sense as to 
whether the Administration is going to sign it, when will it be 
signed, and what is the delay? Because I understand that 
Transportation and Infrastructure (T&I) may be objecting on the 
floor today because of a point of order on jurisdiction.
    If they do, I plan on trying to put it back in, in the 
conference. But, obviously, the easier way would be to have the 
President do it, and do it quickly.
    So, if you could just check and get back maybe to Mr. Hoyer 
and Mr. Kolbe and myself today as to some sense of where it is 
and whether it is going to happen, it would make a big 
difference.
    Mr. Barram. I will be happy to do so. I suspect there are 
some subsidy issues in there. I bet you that OMB is working on 
studying the effect of those subsidies.
    Mr. Wolf. Well, it has been seven and a half months now, 
and that could be phased in, and telework has no subsidy to it 
at all.
    Mr. Barram. I will look at it.
    Mr. Wolf. The only subsidy would be on the Metro check. But 
on the subsidy, that issue could be phased in. If you could do 
that and get back to us by the end of the day and Mr. Hoyer, I 
know you feel the same way, and Mr. Barram, just let us know 
what the status of it is. Is it going to happen? And when do 
you expect it to happen?
    And I thank you, Mr. Chairman.
    Mr. Kolbe. Thank you, Mr. Wolf.
    Ms. Roybal-Allard, you still had about three minutes I 
think on your first round.
    Ms. Roybal-Allard. In the interest of time I will submit 
the remainder of my questions for GSA for the record.
    Thank you for the opportunity, I appreciate that.
    Mr. Kolbe. Thank you very much.
    Mr. Hoyer.
    Mr. Hoyer. Thank you, Mr. Chairman.
    I am going to submit an infrastructure protection program, 
which I think is obviously a very high priority for you for the 
record.

               FOOD AND DRUG ADMINISTRATION HEADQUARTERS

    Let me talk about the Food and Drug Administration (FDA) 
briefly. We included $35 million last year, you requested $101 
million this year. This is for consolidation from many, many 
different sites. It is ultimately going to save us a lot of 
money, obviously, but it is a significant sum of money. Would 
you tell us why the $101 million is necessary for this fiscal 
year?
    Mr. Peck. Because we are ready for the first really large 
phase of construction. This is a phased construction process. 
We have asked for an advance appropriation as well, so, we are 
trying to march along as fast as we can.
    Mr. Hoyer. Presumably because this is a large project, 
every month and annual delay in doing the whole project will be 
very costly; am I correct on that?
    Mr. Peck. That is correct. As with the courthouse projects, 
we think we will be through with design and ready to go, and we 
don't want time to elapse between the time we finish design and 
are ready to award construction. We would like to go right into 
construction.
    Mr. Hoyer. Good. And I want to thank the Chairman for his 
support of this project. It is not as controversial as it once 
was because FDA is not as controversial as it once was, but the 
fact of the matter is whatever you think about the objective, 
this project is critical to save a lot of money. It is not in 
my district, although it is proximate tomy district.

                        SUITLAND FEDERAL CENTER

    The second question and the last question I will ask 
because of our time frame. The Suitland Federal Center. As you 
know, I went to high school right down the block. These 
buildings were built when I was a kid. And if you go out there 
they are in awful shape. We ought not to be having Federal 
employees work in those conditions and those kinds of 
facilities. It is critical, and particularly Federal Building 
3, in my opinion, we need to get on with an entire redesign.
    The Metro stop is going to be there shortly, as you know. 
So, it has all the assets. The Naval Intelligence Center, as 
you know, has been built there, an excellent building. So, this 
can be a quality campus, if you will, but right now those 
buildings are in awful shape. Can you comment on that?
    Mr. Peck. Not to say much other than that I agree.
    Mr. Hoyer. That is enough. We will expand from that.
    Mr. Peck. GSA was thinking for years that we could just go 
ahead and continue to renovate those buildings. We started to 
have the kinds of problems that you realize you just can't fix. 
So, we took another look at that approximately a year or two 
ago and decided those kinds of buildings were never meant to be 
that permanent, beyond a certain point. That is why you have 
seen us go to a recommendation for new construction on that 
site.
    Mr. Hoyer. Mr. Chairman, I don't----
    Mr. Barram. We have design in the fiscal 2001 budget.
    Mr. Peck. I will note that we asked the authorizing 
committee to go ahead and authorize the funding which we had 
already appropriated for this project, and we think we will get 
that authorization.
    Mr. Hoyer. Mr. Chairman, I don't know that you have ever 
been out there but these buildings are World War II tempos. 
They were built for temporary buildings and that is the shape 
they are in. It is a bad environment in which to have Federal 
employees, any employees working.
    I appreciate your answer to the question, I appreciate your 
agreement, I appreciate the fact that the design is in there, 
and I will work with the Chairman on trying to make sure this 
goes forward. Thank you.
    Thank you, Mr. Chairman.
    Mr. Kolbe. Thank you, Mr. Hoyer.
    Mr. Goode, do you have other questions?

                        PRESIDENTIAL TRANSITION

    One 30-second question on transition. You have requested 
$7.1 million for Presidential transition. And $6.1 of that is 
what is required and comes under the way it is calculated under 
the law, Public Law 100-398. But you have got an additional 
million dollars there based on a bill that passed the House, 
H.R. 3137, on a voice vote. But it is still languishing over in 
the Senate. Isn't that a little unusual to request funds based 
on a bill that has passed one house?
    Mr. Barram. Yes, but if the legislation passes, we are 
going to need the money to implement it for the upcoming 
Presidential Transition.
    Mr. Kolbe. Okay.
    Mr. Barram. And this, you know, this is----
    Mr. Kolbe. I just wanted to find out why----
    Mr. Barram [continuing]. All the transitions have done so.
    Mr. Kolbe. All right, thank you.
    We are going to conclude this part of the hearing and I 
think we are going to go to the judges, but I need to consult 
with Mr. Hoyer and Ms. Roybal-Allard for a moment.
    So, we will conclude this part of the hearing and if 
everybody else will stand by for just a moment here.
    [Recess.]
    [Questions submitted for the record and selected budget 
justification materials follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                           Tuesday, March 28, 2000.

              NATIONAL ARCHIVES AND RECORDS ADMINISTRATION

                               WITNESSES

JOHN W. CARLIN, ARCHIVIST OF THE UNITED STATES
LEWIS J. BELLARDO, DEPUTY ARCHIVIST OF THE UNITED STATES AND CHIEF OF 
    STAFF
ADRIENNE C. THOMAS, ASSISTANT ARCHIVIST FOR ADMINISTRATIVE SERVICES

                              INTRODUCTION

    Mr. Kolbe. The subcommittee will come to order. Governor, 
our ranking Member, Mr. Hoyer, has indicated he will be late 
but told us to go ahead and start and I am sure he will be here 
to ask some questions a little bit later. We are very pleased 
to, Governor, welcome you once again before this subcommittee. 
We look forward to hearing your testimony. Mr. Hoyer is right 
on time. We got word you were going to be late and we could go 
ahead and start.
    Mr. Hoyer. I am late. Governor, I apologize.
    Mr. Carlin. No problem.
    Mr. Kolbe. Now I will begin again here. We are very pleased 
to have you here today, Governor, to testify about the budget 
request for the National Archives and Records Administration 
for the year 2001. This makes how many years that you have been 
before this subcommittee on your budget now?
    Mr. Carlin. I guess this would be my fifth.
    Mr. Kolbe. I think that is right. Governor, although the 
Archives doesn't find itself very often in the limelight as 
many of the other agencies that come under the jurisdiction of 
this subcommittee, it is certainly very important. It is an 
agency whose mission and programs have tremendous impact on 
citizens all over this country, even if they sometimes are not 
aware of the impacts that it has. I think you have done an 
exemplary job of guiding the Archivesinto the 21st century in 
helping government manage its records and its archival 
responsibilities.
    For fiscal year 2001, you are requesting a budget of $303 
million. That is an increase of more than $80 million above 
fiscal year 2000 enacted level. However, the largest part of 
this increase, almost $71 million, is for the renovation of the 
Archives building that is down on the Mall. This major 
renovation has been planned for several years. We discussed 
aspects of the renovation at last year's hearing and after your 
statement this year, I will have a few questions to clarify 
some of the funding details and plans for fiscal year 2001.
    I also want to hear something about your continuing efforts 
to improve veterans' access to their service records. Your 
operations in St. Louis have to be responsive to requests for 
personnel information from veterans. We have supported your 
proposals in past budget requests to make this happen in a more 
timely fashion. And I note that the budget request this year 
includes another amount for this effort.
    We are also of course going to go through a transition to a 
new presidential administration during this fiscal year and 
your request includes a total of $5,923,000 which would permit 
the Archives to move and begin managing the records of the 
Clinton administration. The transition presents a different 
kind of a challenge for the Archives, certainly different I 
think than any other transition that we have had before because 
of the amount of electronic information that has to be archived 
and stored and processed. It is very important that we make 
sure that this transition is smooth and done efficiently.
    I also want to make note of the progress that the Archives 
has had in tackling the issue of electronic records and 
management. You highlight some of that in your formal statement 
here today. I think that sounds very promising. I do have a few 
questions concerning your plans for future progress in fiscal 
year 2001 and beyond that. So once more, Governor Carlin, I 
appreciate your presence here and the leadership you have given 
to this department or this agency, your responsiveness to 
questions and concerns of the committee.
    Let me ask my friend and distinguished ranking member if he 
would have a few comments before we take your testimony and 
then questions. Mr. Hoyer.
    Mr. Hoyer. Thank you very much, Mr. Chairman. I join you in 
welcoming Governor Carlin and other members and leadership of 
the Archives to our hearing. I am always pleased to work with 
you in the important work you do in preserving our history and 
our records, and of course very pleased to have you as a 
neighbor in College Park. College Park is extraordinarily proud 
of having an institution of your quality, world leader in 
archival activities in our presence.
    Let me address two of the challenges that the chairman has 
mentioned and you have mentioned in your statement. Obviously 
preserving electronic records and making them accessible is a 
real challenge and it is a new kind of thing for us. All 
Federal agencies I think are struggling to keep pace with the 
rapid advancement of technology and we need to do everything we 
can to keep them up on the advances so that they can do the 
best job possible and assist you in your ultimate job of 
preserving and maintaining those records.
    I understand that you are now closer to utilizing 
technology that will make electronic record archives a reality. 
I am sure we will hear about this.
    The other challenge you have is the physical renovation of 
the Archives' main building. Built in 1932, home of our most 
historic documents and a shrine in many respects to two of the 
greatest documents ever written by a man, both articulate why 
we are forming a government and then the instrument of 
government itself, the Constitution, and the Bill of Rights is 
a part of that Constitution.
    Now, you have requested a very substantial increase for 
full renovation construction for fiscal year 2001. I think this 
is important to do and do as quickly as possible and certainly 
I will be working with the chairman and with you and your 
people to effect that end. Hopefully, we will have sufficient 
dollars available to this subcommittee to accomplish the 
objectives that the administration and you want to accomplish.
    So with that, Mr. Chairman, I look forward to Governor 
Carlin's statement.
    Mr. Kolbe. Thank you very much, Mr. Hoyer. Governor, as 
always, your full statement will be placed in the record. If 
you would like to summarize or make some comments, tell us some 
of the highlights and then we will go directly to questions. 
Governor Carlin, the floor is yours.

                    SUMMARY STATEMENT OF MR. CARLIN

    Mr. Carlin. Mr. Chairman, Congressman Hoyer, subcommittee 
staff, before anything else, I want to certainly thank you for 
the strong bipartisan support you gave NARA on appropriations 
last year and as well for the time you recently took out of 
your demanding schedules to meet with me personally about our 
budget request this year. We very much appreciate the time and 
attention you give, both of you. And I would also like to 
introduce Deputy Archivist Lewis Bellardo and Assistant 
Archivist Adrienne Thomas, who join me at the table to assist 
in some of the questions that you might have.
    Today in addition to highlighting our 2001 budget request, 
I have news to announce, news of potential importance to the 
entire Federal Government and to everyone else in our country 
who really consider records and depends upon those records.
    On previous occasions, I have identified the problems of 
preserving and providing access to vast quantities of system-
dependent electronic records, in multiplying formats, as a 
great challenge for NARA in the 21st century. Today I can tell 
you that we are on the verge of a major technological 
breakthrough for the long-term preservation of the born-digital 
records of the Federal Government. By that I mean records 
created electronically using computer technology.
    Research and development work done for us by the San Diego 
Supercomputer Center indicates that a practical electronic 
records archives may be in sight, and I have just approved an 
interagency agreement with the National Science Foundation for 
work on such an electronic records archives to be carried 
forward within the National Partnership for Advanced 
Computational Infrastructure, which was created by NSF to take 
advantage of newly emerging opportunities in high performance 
computing and communications.
    The electronic records archives that we now believe 
possible will not come overnight or inexpensively, but it is of 
the utmost importance in the era of electronic information. In 
simplest terms, it will be able to preserve any kind of 
electronic record, free it from the format inwhich it was 
created, retain it indefinitely, and enable requesters to read it on 
computer systems now in use and coming in the future. And because the 
system promises to be scalable, it could be useful as well for smaller 
archives than ours, including those of State and local governments and 
private institutions. Modest additional funds needed to carry this work 
forward are in our budget request for fiscal year 2001.
    The budget request also contains funds for extending our 
work with Federal agencies to improve the management throughout 
the Federal Government of records of all media. This includes 
our targeted assistance program through which we work in 
partnership with agencies to help them meet critical records 
management needs. Already we have won praise for targeted 
assistance from agencies here as well as field offices across 
the country, and now we need your help to complete the coverage 
nationwide.
    Additionally, the budget we request will enable us to take 
steps to improve our services to the nation's veterans and 
their families. As you know, they depend on military service 
records to document entitlements to benefits. And we are 
combining new technology, redesigned work flow, and staff 
retraining to meet veterans' requests more rapidly, reduce 
current backlogs of customer requests, and increase customer 
satisfaction by responding not only fast but with the right 
records.
    For fiscal year 2001 we request the third and final funding 
increase in the sequence I outlined last year for 
implementation of this reinvention project. On the chart that 
we are showing, we have our projection that the project will 
pay off in backlog reduction at an accelerating rate between 
now and the fall of 2002 when turnaround time will fall below 
10 days on average.
    As you can see, although the numbers are too small, it 
begins slowly but the acceleration takes place during fiscal 
year 2001 which begins in October. That will be the significant 
improvement in the process and the service that we need to 
provide veterans.
    Among the initiatives through which we provide public 
access to records, our budget contains funds for another that 
will be inescapable in fiscal year 2001. We request funds for 
temporary records storage in Little Rock, Arkansas, the 
designated site for the Clinton library, for moving Clinton 
administration records there and for beginning their processing 
following the practice we established for records at the Bush 
and Reagan administrations. Because we are legally required to 
preserve and provide access to records of the Presidents, funds 
must be added to cover the costs or come out of our base budget 
at the expense of other valuable programs.
    As you gentlemen both have already noted, our largest 
increase requested in our fiscal year 2001 budget, in fact the 
one that accounts entirely for the overall increase we are 
requesting, is for the renovation of the original National 
Archives building here in Washington. This is something we can 
put off only by risking the safety of our records, our staff, 
and our visitors. And I have a photograph that illustrates a 
hazard now existing in the 65-year-old structure. This photo 
shows a shaft behind walls that runs from the subbasement to 
the roof creating obviously a very serious fire safety problem 
because of the speed with which fire could spread throughout 
the building.
    I also have a photo that shows an exhibit case mockup used 
to help determine the best angle and height to display the 
Charters of Freedom. From our tests, a different height and 
angle from those shown, this was an original prototype 
developed. We have chosen a 25 degree angle with the front edge 
of the case 30 inches tall.
    And then a final chart showing proportions of the funds to 
go to each of the renovation areas: Fire and life safety 31 
percent, almost a third of the entire appropriation will go for 
fire and life safety. ADA compliance, 20 percent. Just those 
two over 50 percent of the funds. Mechanical systems, 16.8; 
electrical systems, 16 percent; Charters security, 10 percent; 
and architectural modifications, 5.4 percent.
    Funding that you previously provided for design and 
preconstruction engineering work will enable us to be ready to 
begin full renovation in fiscal year 2001. The renovation funds 
we now request will enable us to eliminate major fire and life 
safety deficiencies, restore all mechanical and electrical 
systems to full operation and compliance with current building 
codes, and bring public portions of the building, including the 
rotunda and all exhibit areas, into full compliance with the 
accessibility standards under the Americans with Disabilities 
Act.
    Nearly a million people a year come to this magnificent 
building to visit the Charters of Freedom, participate in our 
programs, and do research. We want to make it safe and 
accommodating for millions more.
    Those are the highlights of our budget request, but behind 
the facts and figures are living people with real needs whom 
our programs serve. Among them is a person who recently wrote 
me about the success of our staff in locating, after elaborate 
detective work in three of our facilities, the proof of 
citizenship needed by her 91-year-old grandmother to qualify 
for Medicaid. And she wrote, ``the National Archives is truly a 
national treasure and an invaluable resource for millions of 
Americans''. With the continued support of this committee, that 
is what NARA will continue to be.
    Thank you, and I welcome the opportunity to answer any of 
your questions.
    [The statement of John W. Carlin follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                        RENOVATION OF ARCHIVES I

    Mr. Kolbe. Thank you very much, Governor. I don't have very 
much to ask but let me just ask in a couple of areas here, and 
I will turn to Mr. Hoyer if I don't get these done the first go 
around here. But let me just ask a couple of questions about 
the renovations since that is clearly a big piece of this 
budget this year and certainly of the additional money.
    Your budget request, it has a total of $88 million. That is 
$71 million above the enacted level for renovating the main 
building of the Archives down on the Mall. We have of course 
supported and approved your planning and design efforts and 
have provided some of the funds for that and we certainly 
understand the need for renovation, including preserving and a 
better way of showing the Charters of Freedom. Nonetheless, I 
think you would agree it is a sizable sum of money and one 
which we have to figure out how to get that, swallow that all 
here. So I have a few questions in this area.
    Can you give us a rough idea of the schedule for this and 
the timing for the major milestones in this renovation?
    Mr. Carlin. Well, with the previous appropriations, 
obviously we have been working on design as well as we have now 
started what we would call preconstruction work, actual work in 
the facility so that when we--if the money is available to go 
to contract, we will be prepared to do so. The planning work, 
the design work, the architectural work, will be done late this 
calendar year so that we can prepare to go to bid for actual 
renovation with the appropriated funds we are requesting by the 
spring of next year with actual work beginning in the summer of 
2001. We would plan to close the public side on Constitution 
Avenue the 5th of July of 2001, and then for a period of 2 
years devote the energy to completing the public side and hope 
to open in the summer of 2003 with the full completion of the 
renovation in 2004. During this time frame, we will keep the 
research side open so that genealogists and researchers can use 
our very valuable records that are housed at the main building 
and that research can continue. It will just be the free 
flowing public access to the rotunda area and exhibits that 
will be closed for that 2-year period.
    Mr. Kolbe. Though, of course, that is significant to have 
the public access area closed for that length of time but I 
understand the need for that. Given that this is going to take 
us, I think you said roughly 3 years to complete, is it 
possible to phase the appropriations over several years rather 
than having to put it all up front and what kind of problems 
would that pose if that were done? What are the downsides from 
phasing this funding?
    Mr. Carlin. The principal downside of phasing the funding 
is it would end up costing much more. It is possible but the 
reason why it is extremely difficult to do so is the way the 
building was constructed back in the 30s. Most buildings on the 
Mall of comparable size were structured in such a way that 
sections could be dealt with separately but because the 
original design included an open courtyard that even before the 
construction was completed was recognized as not going to fit 
the needs when they realized how many records were going to be 
moved in. They immediately filled the courtyard in and when 
they did so they really built the building in one unit, so when 
you work on the air conditioning, it is not sectioned off in 
the Northwest quadrant and therefore able to deal with that 
quadrant in fiscal year 2001 and then move on to the next 
quadrant in 2002.
    So it would be possible but incredibly expensive and 
obviously would keep us from opening as quickly as you have 
appropriately acknowledged to the public. We would stretch 
beyond the 2 years simply because of the way the building was 
designed and ultimately built. That is the principal reason. It 
would just be very difficult----
    Mr. Kolbe. When you say a lot more, do you have any 
estimate of how much if we tried to do this in 3 years, 3 years 
of appropriations in one-thirds?
    Mr. Carlin. Obviously when we go to contract, we can only 
go to contract for the amount of money we have. We would have 
to move much more of the records out of the building. We figure 
at least half of the records would have to be moved out. That 
is not done without time consumption as well as cost. We would 
have to move more of the staff out of the building. There would 
be less ability for us to keep research going on an ongoing 
basis. But because all of the plans to this point have been 
based on letting one contract, I cannot give you an exact 
figure.
    The other thing that also makes this difficult is from the 
very beginning you will recall at one time we had studies that 
called for a $300,000,000 estimate. That has obviously been 
scaled back considerably but one of the ways it has been scaled 
back is to fence off stand-alone projects. With earlier R&R 
money, we started the renovation of several of the elevators. 
That is actually taking place now. But it was one element of 
the project that was stand-alone and not impacted by 
mechanical-electrical that went across the entire building. The 
other stand-alone that we are reserving for later, none of this 
will go for--we need a new roof. We will do that in a later 
year with our base appropriation for restoration and 
rehabilitation of our buildings. Oh, yes, and the outside of 
the building will be dealt with. Obviously that can be 
separated.
    So, unfortunately, the part that could be separated has 
been from an efficiency point of view and a cost point of view, 
and we are now left with a situation where it would be much 
more costly, and obviously if you so desire we will provide 
information about extra cost to you. We will get an estimate 
from architects as to how that would spread.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Kolbe. It would be helpful if you do that. If we were 
to be able to do this all in one year and give you the 
appropriation at one time, do you anticipate coming back to us 
with additional requests for funds in the outlying years for 
this effort?
    Mr. Carlin. Based on what I know at this point, no. The 
part of the renovation that would not be covered by this, as I 
previously just stated, we plan on and we will have in the base 
R&R money, and we are committed and feel comfortable we will be 
successful to raise between $20 and $30 million to do projects, 
including the repair and restoration of the murals in the 
rotunda. That will be done with private money. That will be our 
number one project.
    Secondly, we intend to improve the exhibit area with 
private money, and third, we intend to build a new theater 
underneath the Constitution Avenue steps that would greatly 
enhance the public use of the building in a variety of ways, 
including our government customers through the expanded 
training opportunities we would have with a better facility.
    Mr. Kolbe. Last question, sir, and let me turn the time 
over to Mr. Hoyer. You had estimated the total cost of this 
effort would be $94 million. The $88 million you have requested 
for 2001 combined with the $2 million in fiscal year 1999 and 
the $8.5 million in fiscal year 2000 brings the total cost with 
the $88 million to $98.5 million as opposed to $94 million. 
What is the reason for the increase of $4\1/2\ million?
    Mr. Carlin. The reason for the increase is tied to the 
picture that I showed about the fire and safety hazard that 
evolved as a result of the initial work done checking in--the 
planning, design part of the operation as well as 
preconstruction when they actually had to check in behind the 
walls to find out what was there. Much to their surprise, quite 
frankly, because it was not on any drawings, we found literally 
these shafts that run from the basement clear through all the 
tiers to the roof. You didn't have to be too experienced a fire 
prevention person to know that was serious. Plus we discovered 
that internally cork had been used in duct work which is a very 
flammable product which also increased the cost. We have two 
elements to deal with there that were not projected in the 
original design work.
    Mr. Kolbe. Thank you very much. Mr. Hoyer.

               RENOVATION IMPACT ON ARCHIVES I EMPLOYEES

    Mr. Hoyer. Thank you, Mr. Chairman. Let me hone in on the 
employees in Archives I downtown. How will they be impacted as 
we move along on this project?
    Mr. Carlin. They have already been impacted to the extent 
that a number of them have been temporarily moved to Archives 
II.
    Mr. Hoyer. How many of them have been moved to Archives II?
    Mr. Carlin. Approximately 20, I believe. And the bulk of 
those employees will come back following renovation. One of the 
methods we are using to be able to for the most part provide 
service and still go through the renovation is the development 
of what we call swing space, and that will be space for staff 
to be shifted. One of the construction--early construction 
projects will be the building of office space within the 
northwest and northeast mote areas that have been abandoned for 
all practical purposes. There is no functional use at this 
point but will be used to build additional office space. We 
will be able to move staff into there, renovate staff space, 
and then do a musical chairs type shifting as we go through the 
entire renovation period. So in terms of your question, some 
staff have been moved. Some staff will be moved within the 
building twice, one in the swing space and one back into 
renovated space, and obviously staff will be impacted by the 
construction going on to some extent. That will not be able to 
be avoided.
    Mr. Hoyer. You don't contemplate more than the 20 being 
transferred out?
    Mr. Carlin. Correct. But they are likely spending a little 
more tax dollars in your district so you will have that 
benefit, Congressman, for a period of time.

            PRIVATE DONOR FUNDING FOR ARCHIVES I RENOVATION

    Mr. Hoyer. That is always good to know.
    Let me ask you about the educational components. They are 
going to be privately funded and they are to be completed as I 
understand it--or let me ask the question. Are they to be 
completed in tandem with the completion of the renovation?
    Mr. Carlin. They are to be completed in tandem with the 
renovation of the public part, the rotunda, that we would have 
completed in the summer of 2003.
    Mr. Hoyer. What is our target for private funds?
    Mr. Carlin. The total is between $20 and $30 million. 
Twenty would certainly do the basic components of taking care 
of the murals which we now estimate to be approximately $4 
million. The permanent exhibit and improved educational 
components would take a sizable sum and the estimate for the 
theater is approximately $7 million.
    Mr. Hoyer. Now, are we planning any kind of recognition of 
the donors publicly in the Archives?
    Mr. Carlin. Yes, appropriately done consistent with other 
practices and accepted on the Mall by other agencies. Yes, we 
will appropriately recognize those donors obviously 
differentiating between those who help us with a modest gift 
versus those who make a real difference and the potential for 
naming opportunities as well as recognition on some type of 
wall of honor will be appropriately carried out.

        RECOGNITION OF PRIVATE DONORS FOR ARCHIVES I RENOVATION

    Mr. Hoyer. Let me ask you about the naming opportunities. 
This obviously is a big fundraising--tactic is the wrong word 
but consideration, if you will, for large donors. Stadiums are 
being named, buildings that universities name. I am concerned--
I happen to serve on the House Administration Committee--with 
the Library of Congress, with the Visitors Center, we are 
talking about large donors and how they will be recognized. 
This is after all a building for the centuries, not just for a 
short period of time. What is your thought on that? Are we 
going to have rooms named for corporations or individuals?
    Mr. Carlin. I used the word appropriate earlier and I would 
raise it again because I think that is the key word, 
appropriate recognition. And when it comes to the charters and 
the rotunda, I can assure you there is not going to be the XYZ 
corporation rotunda. We will use an appropriate plaque, an 
appropriate bronze wall of honor type to recognize those who 
contributed to that. We will have opportunities that I think 
are appropriate in some of the potential classroom space where 
students--and we have literally hundreds of thousands of 
students that come through the building, and we want to expand 
that opportunity in a more meaningful way. I think there will 
be appropriate opportunities to name rooms that will not be 
inconsistent with the concern you have shared.
    Mr. Kolbe. Would the gentleman yield.
    Mr. Hoyer. Sure.
    Mr. Kolbe. If we are successful in convincing ourcolleagues 
to appropriate this $88 million, it seems logical to me that this 
should be known as the Hoyer/Kolbe Archives Building, don't you think?
    Mr. Hoyer. Or more appropriately I'm sure the Kolbe-Hoyer.
    Mr. Kolbe  [continuing]. Governor Carlin should get his 
name onto that, too, for his efforts. Thank you.
    Mr. Hoyer. I am a great one to talk with respect to 
Archives naming things, I suppose. I don't know whether you 
have been out to Archives II.
    Mr. Kolbe. We had it scheduled one time and it got 
canceled.

                    ELECTRONIC RECORDS PRESERVATION

    Mr. Hoyer. You should to do that. Let me go to electronics 
preservation. Would you elaborate a little further what this 
means in terms of our efforts; in other words, the new 
technologies preservation purposes? You indicated there are 
ways to do it and retain it electronically so it can be 
retrieved electronically but can you elaborate on that a little 
bit?
    Mr. Carlin. I would be happy to. I would share with you 
that at a comparable hearing 2 years ago, at the close of that 
hearing, Mr. Hoyer, you, after I had presented some statistics 
that were sort of scary, wondered if it was possible for us to 
resolve this and would we have the resources. I said at that 
time that technology had got us into this and it would have to 
be technology that would get us out of it. In fact, that is 
what is happening. Developments, new theoretical and early 
applied research just in the last 18 months supported by the 
National Science Foundation, has allowed us to be able to say 
what we are saying today. As we have worked with the folks in 
San Diego and other partners to take what was considered not 
too long ago an impossible situation and actually have 
demonstrated already an early prototype in the early applied 
research part of this project. We are able to, as they use the 
word, ingest literally millions of records of a variety of 
formats in a very short period of time and be able to make 
sense of them from an access point of view. And so we are very 
excited about what this could mean for all across the entire 
world literally.
    Obviously, we have moved in some ways more substantively to 
electronic records than much of the world but it is all coming 
very fast and it is an issue that the private sector is heavily 
concerned about.
    One of our partners on some of the research that we are 
involved with is the pharmaceutical industry because of their 
need for long-term retention of records. The Patent and Trade 
Office was one of the first Federal agencies that joined with 
us to work on this, as well.
    So the significance I don't think can be overstated and I 
would also underline, as I did in my statement, the completion 
of this is not going to be overnight, but we now I think can 
talk about a realistic timetable where early developments will 
be significant in the next couple of years and full 
implementation probably in 4 to 5 years. It will not be done 
without considerable investment but it is an effort that is 
being done on behalf of the entire Federal Government plus all 
the others who will benefit from the development of the 
technology because the government is very much in need of the 
capability of maintaining records.
    Technology changes so fast now that we are not just talking 
about history. We are talking about accountability. We are 
talking about your capacity as a Congress to be able to ask an 
agency about records that were created 10 years ago but maybe 
three generations of technology ago and be able to efficiently 
call up those records and be able to access them.
    There are a lot of individual rights and entitlement 
records that are not preserved in a permanent way but are 
critical to individuals in terms of being protected, and so 
this is not an issue just as in the traditional sense for an 
archives to accession records but literally for the operation 
of the Federal Government and all other governments and private 
elements that will benefit from the development of this 
technology.
    Mr. Hoyer. Thank you. Mr. Chairman, I think my time is up 
and I will yield to Mr. Price. Governor, I am going to go over 
to the Labor-Health Committee, Corporation for Public 
Broadcasting, but I will be back.
    Mr. Kolbe. Mr. Price.

                      ELECTRONIC RECORDS ARCHIVES

    Mr. Price. Thank you. Welcome, Governor, and your 
associates as well to the subcommittee. Let me just pick up on 
Mr. Hoyer's line of questioning briefly. We have had this 
partnership going with DARPA and with the Patent and Trademark 
Office and with UC-San Diego. You also indicate, though, that 
full development of this Electronics Records Archives has 
relied on technologies not yet fully developed. Can you fill 
that in a bit and tell us what the implications are, first of 
all for the rather small funding increase you are requesting 
this year and also the kind of time frame that you anticipate 
meeting?
    Mr. Carlin. When I say--when we talk about fully 
implemented or operational in terms of actual use here, yes, we 
are several years down the road. But the prototypes, the early 
prototypes and the early applied part of the research have 
worked so well that we are beyond just a theoretical concept 
that sounds good theoretically but no one knows whether it will 
work. We have demonstrated that it will work.
    Now, obviously there is a lot of refinement that will need 
to take place and the reason that our request for this year in 
terms of what we would need in 2001 is so minimal--there is 
really two reasons--one, you have provided support in this area 
for two fiscal years and that is part of our base. Secondly, we 
will still be in 2001 in the research part of this. It will be 
applied research primarily, but it will still be research where 
we will be heavily dependent upon the resources of our partners 
committed to this project. And it will be 2002 and beyond where 
we will start to talk about implementation where it will come 
back to us for actual development of the implementation of the 
project where we will need sizable resources at that time.

        NATIONAL HISTORICAL PUBLICATIONS AND RECORDS COMMISSION

    Mr. Price. Thank you. Let me shift to the National 
Historical Publications and Records account. As you know, I 
have had a strong interest in that program, and I am pleased we 
have been able in tight budget times to maintain funding at the 
$6 million level for several years now. Chairman Kolbe and this 
subcommittee have been instrumental in increasing this 
appropriation, and I am grateful for the ongoing support. This 
year you have once again requested $6 million for the program, 
which of course is a slight reduction in real terms even when 
you disregard the additional $250,000 earmark that was included 
in last year's bill.
    I am interested to know how well this funding level is 
enabling you to meet demand for the program. I understand that 
the NHPRC staff work closely with potential grantrecipients to 
help them craft realistic applications, realistic in terms of the 
dollar request given the size of the program. So I am not certain 
exactly how to interpret the data you have about the acceptance rate, 
how completely that reflects demand. Do you have any sense of how well 
the $6 million funding level is meeting demand and whether any 
additional increase might be warranted this year or in future years?
    Mr. Carlin. Congressman, I think your question is an 
excellent one and one that the answer will evolve, the total 
answer will evolve over the next period of months and maybe a 
couple of years because there are a lot of questions being 
asked about this program from a positive constructive point of 
view as to what is the real need and therefore if that need is 
larger then should we not be more aggressive in pursuing a 
higher figure.
    The $6 million figure I think comes very close to providing 
the resources for the program as it now exists and as you know 
as well as anyone and certainly members of this committee are 
very much aware, there is a very complex process that 
applicants go through. The applications don't just storm into 
Washington. They go through an advisory group in each State.
    In addition, as you pointed out, the staff works very 
closely with applicants to refine projects, to make sure that 
they are appropriate in terms of what is realistic. So it is 
logical that one can raise the question what is the real need. 
I think the real question that is going to come, though, that 
will evolve and direct us to a considerable extent in the 
future is all of the progress on electronic records and what 
that will--what need there will be across the country in State 
and local governments, for an example, to implement that 
progress.
    One of the things that is in the full testimony but I would 
want to underline is that a current NHPRC grant is 
supplementing support to the San Diego project to make sure 
what we are developing is scalable so that small archives, 
smaller units, as well as large can use this technology because 
the problem is not connected to the size of an institution but 
to the technology that everyone is using across the country.
    But as we come to implementation and use of, it is 
conceivable that additional resources will be needed. I would 
also advise the committee that there are studies taking place 
at this time directed right at the question you asked. What is 
the real need in communicating with State archivists and people 
across the country who have benefited by this program. I was 
actually cautioned to not seek additional funds at this time 
but to allow them to better analyze where we really are so 
that--rather than sort of nickel and dime it up, if there was a 
justified significant increase, it could be presented after a 
full study had taken place.
    Mr. Price. So that is in motion, that kind of an analysis?
    Mr. Carlin. Yes.
    Mr. Price. So we should expect to see that reflected in 
subsequent----
    Mr. Carlin. Depending on the results, yes. It was 
anticipated it would be done in May or June of this calendar 
year. NAGARA, the National Association of Government Records 
Administrators, which is an organization that State archivists, 
for example, play a significant role in and with some partners 
I believe are doing this study.
    Mr. Price. Thank you.
    Thank you, Mr. Chairman.

                     VETERANS' RECORDS IN ST. LOUIS

    Mr. Kolbe. Thank you very much, Mr. Price. Governor Carlin, 
let me just ask you a question or two about the veterans 
records. You had a chart up there which you showed us. It might 
actually be helpful if we had it back up there. You testified 
last year that you get about a million and a half requests for 
records of veterans and we of course provided a good deal of 
funds for the improvements of the military records system in 
St. Louis and you have got additional money in the 2001 budget 
for going ahead with this for preserving and accessing these 
veterans records. We recently approved a request of $369,000 of 
unobligated balances to support the ongoing work of this.
    Does this chart suggest that by the end of fiscal year 2001 
the work will be complete by that time, which is when you show 
that tremendous improvement in the access time?
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Carlin. At the beginning of 2002. Throughout 2001----
    Mr. Kolbe. 2001-2002 fiscal year or calendar year?
    Mr. Carlin. Fiscal year. The chart begins--and what we 
should do is provide the chairman with a copy if you don't have 
them up there so you can see a little easier. We expect the 
decline to start this summer and start to accelerate in October 
and so the 12 months of the 2001 fiscal year will be the 
dramatic improvement.
    Mr. Kolbe. So it really does look like it is by the 
beginning of the fiscal year 2002.
    Mr. Carlin. Yes. The improvement during 2002 is fine tuning 
and making full use of technology.
    Mr. Kolbe. What are the--and then at the end of 2002 fiscal 
year essentially this would be completed, this project?
    Mr. Carlin. Yes.
    Mr. Kolbe. What the improvements we are going to see made 
during this fiscal year 2001 with the money which we would give 
you?
    Mr. Carlin. What we are talking about there is first of all 
incorporating technology which is expensive in terms of the 
technology itself but also in terms of the training. We are 
talking about taking a staff that historically had followed a 
very manual, paper oriented, outdated set of processes to 
provide service, but that was a skill level they were at and to 
take them as well as we are hiring at a different level for 
vacancies that come up. Replacement candidates, the skill 
levels we are working on, the grade level we are bringing 
people on is higher. But all of this takes a great deal of 
training, a great deal of change management, something that we 
have learned a lot about in the last year.
    Change in any entity, public or private, is not easy to get 
people to do things differently, to get a culture to change, 
and it has been a real eye opener for us in terms of the 
magnitude of that challenge, the difficulty. But we have 
quickly learned some lessons, adjusted in the sense of what 
training we were using, ratcheted up the quality of the 
training, the concentration, the follow through to that 
training in order to make change management a reality.
    But that is where the focus of the resources are going. It 
is technology and training and allowing us to implement the 
new--well, the development of new processes as well with 
contract dollars in terms of how we are going to not just bring 
technology in but how we are getting to use that technology to 
more efficiently and, most importantly, more effectively 
provide the service that the veterans deserve.
    Mr. Kolbe. Thank you. I can say on behalf of every 
congressional office case worker we look forward to seeing this 
actually happen.
    Mr. Carlin. And your joy will be closely followed by our 
joy in having a lesser burden on our staff in trying to explain 
to your staff as well as yourselves what is going on or not 
going on.
    I would say as a follow-up to your original question on 
this what we outlined last year is consistent with what we are 
asking for this year and the timetable as well is consistent.

                     ELECTRONIC RECORDS MANAGEMENT

    Mr. Kolbe. Let me turn to the electronic records 
management, which is very exciting. Your statement goes into 
great detail. We had questions from both Mr. Hoyer and Mr. 
Price on it so we have been over this a bit but I just wanted 
to kind of follow through.
    I think as you have said, this is a problem of technology 
and it is only going to be solved with technology. I think that 
is a very good way to think about it and look at it. And you 
have talked about the tremendous breakthroughs which we are 
seeing as a result of the work with the San Diego 
supercomputing center. In layman's language, can you describe 
for me just what it is you have learned as a result of this 
trial demonstration with the San Diego computer center--
supercomputer center--that is so promising?
    Mr. Carlin. What we have learned and what we now believe is 
very practical and will be implemented is we can now take a 
variety of formats of electronic records, e-mails, databases, 
et cetera, there are a number of different formats, bring them 
into a system, accept them, take them in, accession them into 
our facility, and that could be a records center down the road 
for short term possibilities as well as ultimately into the 
Archives, that we could--what they are using is a wrapper term, 
literally wrap those records, sort of encase them in a time 
capsule the length of which would be determined by the access 
request that might be coming down the road and whether that be 
5 years, 50, or 500 years later. This technology would allow us 
to at that point in time, whenever that is, to come back into 
this wrapped, encased set of records and access, unwrap for the 
moment what is wanted and desired and allow that to be 
presented in a readable format regardless of the generation of 
technology we are talking about at that particular time.
    Mr. Kolbe. Good description of it. Do you have any idea 
when this technology could be far enough along that you could 
actually make practical use of it or when you might come to us 
with requests for funding for this? When could we actually see 
the Archives make use of this?
    Mr. Carlin. We believe the earliest implementation will be 
in 2002 for a segment of the project that would allow us to 
significantly improve our ability to take in already created 
electronic records and provide access to them. It would be a 
component of. Another term they use, and my deputy might assist 
me here, is a snap-in where literally a somewhat stand-alone 
effort can be developed, which is what we would start on in 
2002, and then it can be plugged into, as I would describe it 
as a layman, a mainframe. Lou?
    Mr. Bellardo. We are working, this year we are building a 
prototype for the reference component just to deal with 
structured data like databases which are the easiest to work 
with. We will be building a series of other prototypes during 
2001. In 2002, we will be working with the State Department 
cables which will be a very large accession. In 2003 we will be 
working with the military to begin servicing electronic 
Official Military Personnel Files, OMPFs. By the end of 2004 
into 2005 the plan is to have a fully operational system and 
each of these snap-ins. Basically--the theory behind all of 
this is that you use the very obsolescence of technology to 
work for you because you use certain sets of products off the 
shelf but modified to do what you need to do to basically 
quickly analyze each individual record and groups of records, 
strip out what is needed in terms of understanding how that 
record is structured, and what is needed to play it back and 
then that becomes the envelope.
    Well, as technology moves forward, you will be creating 
different kinds of records. You use another tool that again is 
based on off the shelf products as they come along and so on 
and so forth. But as John was saying, we will be needing to--
because of the State Department challenge, we will be needing 
at least to have this reference component in place for these 
cables by 2002.
    Mr. Kolbe. Governor, you said that this could cost as much 
as $130 million to develop this but you have also suggested 
that it has a lot of applications elsewhere in government. Do 
you anticipate that this development cost could have other 
partners involved in this? Are you going to be bearing the cost 
of this alone? Do we expect to see this in your budget 
entirely?
    Mr. Carlin. First of all, Mr. Chairman, I would want to 
emphasize, as my staff has cautioned me, that the figure 130 
was developed to give people a sense of we are not talking 
about a few hundred dollars. We are not talking about a Y2K 
multibillion dollar issue.
    Mr. Kolbe. I accept that but the question still is----
    Mr. Carlin. I understand but I wanted to make sure on the 
record that the $130 million didn't go across the air waves as 
the----
    Mr. Kolbe. And you are locked into that in future years. I 
understand that.
    Mr. Carlin. We would anticipate the number that we would be 
bringing to you for 2002 would be considerably less than the 
130 but would be significantly more than the relatively modest 
set of numbers we have been dealing with for the basic research 
that is in our base that you have provided us with that come to 
a total of approximately 2 million for initial research.
    The heart of your question, though, I would answer this 
way. What we are looking at in terms of numbers and what we 
will refine for you will be the numbers we need to develop the 
kind of infrastructure that would allow us to carry forward 
what the law requires us to do. Now, we will not be building 
our own infrastructure. There will not be another Hoyer named 
monument in College Park, and I say that with obvious great 
respect. What will be needed will be significant development 
resources capital to make use of existing major mainframes that 
could be spread out across the country.
    One of the things that has already became very clear is 
that when you move into this kind of development, one of the 
concerns is what if somebody presses a delete button, we would 
not--we would have backup to backup to backups and in different 
locations but investing in existing mainframes. We would not 
start from scratch.
    Mr. Bellardo. Along those lines in terms of partners, one 
of the blessings of this whole approach is that the National 
Science Foundation and DARPA and others have poured and are 
continuing to pour large sums of money into keeping this 
supercomputing network, the infrastructure of it state of the 
art, and so that is where the real leverage is for us.
    Mr. Kolbe. I don't have other questions. Mr. Price, do you 
have any that you would like to ask? Mr. Hoyer will submit his 
questions for the record then, and we thank you very much for 
your presentation today, and again let me congratulate you, 
Governor Carlin, on the outstanding job you and your staff is 
doing down there. We are very proud of the work that the 
Archives is doing, and we thank you very much for being here.
    The subcommittee will stand adjourned.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                         Wednesday, March 29, 2000.

                JUDICIAL CONFERENCE OF THE UNITED STATES

                               WITNESSES

JANE R. ROTH, JUDGE, U.S. COURT OF APPEALS FOR THE THIRD CIRCUIT
TERRY J. HATTER, CHIEF UNITED STATES DISTRICT JUDGE, CENTRAL DISTRICT 
    OF CALIFORNIA
HARRY T. EDWARDS, CHIEF JUDGE, DISTRICT OF COLUMBIA CIRCUIT
EDWARD B. DAVIS, CHIEF JUDGE, UNITED STATES DISTRICT COURT, SOUTHERN 
    DISTRICT OF FLORIDA

                          JUDICIARY TESTIMONY

    Mr. Kolbe. The hearing will come back to order.
    We have a very severe time problem here. And we have a 
debate on the rule right now on the supplemental appropriation 
and we are being urged to adjourn our meetings. I am going to 
try to get through this because we have people here who have 
come a long ways. I am going to forgo any opening statement. 
Mr. Hoyer, I understand you will forgo any opening statement?
    Mr. Hoyer. That is correct.
    Mr. Kolbe. If you would make yours very brief, we can get 
to the questions, I think, that members need to get to.
    Judge, we will put your entire statement in the record, the 
floor is yours for a statement.

                           SUMMARY STATEMENT

    Judge Roth. Thank you, Mr. Chairman.
    My name is Jane Roth and I am a judge on the Third Circuit 
Court of Appeals. I appreciate having the opportunity to be 
here today. I can say in a nutshell why we are here and what we 
think is most important. We believe that for our prioritization 
of courtroom projects to succeed we must proceed in an orderly 
fashion to build the courthouses as they come onto the priority 
list. We have an amount of $800 million on the list this year 
and we hope that all of these projects can be dealt with 
despite the fact that the President cut the list down to 7 
projects at a level of $488 million.
    All these projects have been reviewed for need and there 
has been some question from OMB whether the necessary 
information has been provided. This pile on the table is the 
Richmond courthouse. It is the information that is worked out 
with us and with GSA on a courthouse project to determine what 
is needed, and why is it needed, what are the statistics behind 
the need for the courthouse.
    This is a very careful procedure that we go through and we 
believe that if there is not an orderly consideration of the 
needed projects from year-to-year the whole process is going to 
fall apart. We think that we have kept costs down by 
prioritization and we think we have kept costs down by the 
Design Guide. We hope we can continue in that fashion.
    We feel in order to do so that the full proposed list of 
projects, as presented by GSA to OMB, should be included this 
year. By statute, the circuits determine the need for 
courthouses in cooperation with the Administrative Office and 
General Services Administration.
    Once that need has been studied and set forth in the most 
economical way, including considering what needs to be built, 
the scope of what needs to be built, whether there can be an 
annex, or whether a new building is needed, GSA is then 
directed by statute to provide the accommodations which the 
courts have determined are needed.
    The courts and General Services Administration, in 
cooperation, with the careful work they do, determined that 
$780 million on the list, which I have provided attached to my 
statement, is needed this year. This conforms with our 
courtroom sharing policy, which has been determined by the 
Judicial Conference of the United States, that every active 
district judge should have a courtroom.
    GAO, in the study, which OMB says is the basis for their 
position on courtroom sharing, came to no conclusion. They said 
that the courts should do a study. We contracted with an 
independent contractor, Ernst & Young, and we have done that 
study. The study is almost completed. We have discussed 
courtroom sharing with the Ernst & Young people and they have 
informed us that they are going to recommend that every active 
judge have a courtroom.
    I am a former district judge. I know the need for a 
courtroom. From my personal experience I can assure you that a 
judge needs a courtroom for the orderly management of judicial 
business. For that reason and for the reasons I state in my 
statement, I urge you that the full list of projects be 
completed.
    Judge Hatter, Judge Davis, and Judge Edwards have all 
submitted statements and all of us will be very happy to answer 
any questions that you may have.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                         LOS ANGELES COURTHOUSE

    Mr. Kolbe. All the statements will be placed in the record. 
I will defer my questions for later, because I know there are a 
couple of members here who have their own judges here.
    Mr. Hoyer.
    Mr. Hoyer. I will yield, Mr. Chairman.
    Mr. Kolbe. Then Ms. Roybal-Allard.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    I would like to welcome Judge Hatter, who is the Chief U.S. 
District Judge of the Central District of California. Judge 
Hatter is intimately aware of the serious crisis that we are 
facing in Los Angeles. I would like to thank him particularly 
for being here today since he was here last week also, on 
Thursday, testifying before one of the Subcommittees on 
Transportation on this very issue.
    Judge, in your written testimony you state that building a 
companion facility to the existing Roybal Building is simply 
not feasible. And that GSA and the courts have already studied 
that option and have rejected it. You also state in your 
testimony that security and efficiency could be compromised by 
such a companion facility.
    Could you please elaborate on that statement?
    Judge Hatter. Thank you, Congresswoman.
    Thank you, Mr. Chairman, Mr. Hoyer and all members of the 
Subcommittee for this opportunity to respond.
    Clearly, there is an impossibility with regard to a 
companion building. I have here with me a copy of ``The Los 
Angeles Times,'' Tuesday, March 14, 2000, from over two weeks 
ago, indicating that the Federal Government is interested in 
acquiring a building site in downtown Los Angeles, California. 
An advertisement was placed in the paper.
    As of today, I am informed by the Regional Office of GSA in 
San Francisco that not a single inquiry has been made regarding 
this. That is simply because in the partnership which we have 
had with GSA over the years--and it has been a good 
partnership--we have studied this to death. We have had over 6 
studies. We have used the taxpayer's monies for over a million 
dollars for those studies. We have looked at over 12 
alternatives. There is no way that we could have a companion 
building with Roybal and Roybal is three blocks away from our 
main courthouse. We lose jurors, we lose exhibits, we have all 
kinds of safety problems as you have pointed out.
    The only way that we can actually function--and we have 
been trying now for over 20 years to finally get an adequate 
courthouse for the second largest metropolitan area in the 
nation--would be to have a stand-alone building. That was the 
result of all of the studies.
    That is why I say that in essence OMB is not being truthful 
with the Congress. Frankly, there is nothing in the statutes 
that I know of that says that OMB has any right to dictate to 
the third co-equal branch of Government what ought to be the 
way of meeting their needs.
    I am sure Judge Davis is going to speak to that, 28 U.S.C., 
Section 462, which dictates that. Indeed, the Director of the 
Administrative Office of the U.S. Courts will submit requests 
through GSA and those requests have to be answered as Judge 
Roth has pointed out.
    That has been done now over the years. We are number one on 
the priority list but we might as well not be on the list 
because what OMB would do would give us five courtrooms, fewer 
than we have now. And let me tell you, very frankly, we are 
already into the business of courtroom sharing. It is not 
unusual for me to have several juries going at the same time. 
So, I have to borrow a courtroom to have another jury in. I 
have had as many as three juries going at the same time.
    For many years, I was the only Federal Judge in the country 
who regularly did night court. I would do juries from 9:30 to 
5:30, take a half hour, and then do court trials from 6:00 to 
midnight. I almost lost my wife, I did lose a wonderful 
reporter who couldn't do it and went into private practice. The 
Clerks Office had to give me a second clerk. It did not cut 
down on the business.
    I would just say to you, all you members, that here you 
talk about and, indeed, you provide more monies for law 
enforcement and more monies for prisons, but let me tell you 
there is something in between law enforcement and the prisons. 
It is the courts.
    Ms. Roybal-Allard. Is my time up?
    Mr. Kolbe. You can ask another question.
    Ms. Roybal-Allard. Okay. Thank you, Mr. Chairman.
    Judge Hatter. I am so used to listening to the lawyers go 
on, I don't get a chance to talk. But thank you. [Laughter.]
    Ms. Roybal-Allard. Judge Hatter----
    Mr. Hoyer. My, my, my. [Laughter.]
    We are all concerned about your not having control of how 
long the lawyers talk.
    Judge Hatter. We understand that.
    Ms. Roybal-Allard. That didn't come out of my time, did it? 
[Laughter.]
    Mr. Hoyer. That came from a trial attorney who from time-
to-time has been admonished by the presiding judge that he had 
heard enough and he thought the jury had heard enough. 
[Laughter.]

                       MULTI-DEFENDANT COURTROOM

    Ms. Roybal-Allard. Judge Hatter, GSA's original 
recommendation for Los Angeles included a high-security,multi-
defendant courtroom. OMB deleted this provision from GSA's request. 
Could you expand as to why the L.A. District Court needs this type of 
special courtroom?
    Judge Hatter. We have more multi-defendant cases than any 
other district other than perhaps Miami. Just two weeks ago 
now, we had to reassign a 21-defendant case. We have all kinds 
of security problems when we have these multi-defendant cases. 
What we have to do now is take a courtroom that is already 
undersized, build tiers in it, and then have the lawyers, the 
defendants, the experts, and others, all in there, crowded into 
that sort of a situation which makes for real safety problems 
and then take it down after the trial is over. Sometimes these 
are trials that last for weeks and months. And then it costs 
the taxpayers almost $50,000 each time that we have to assemble 
and then disassemble that sort of an operation.
    So, clearly, here in the second largest metropolitan area 
in the nation, our district has over 18 million people. There 
are no other districts that are even a third the size of ours. 
We clearly need an all-purpose courtroom, a secured courtroom. 
It is not for ceremonies. It is for the purpose of trying these 
cases that these growing law enforcement agencies bring to us.
    Ms. Roybal-Allard. And each time you have to modify a 
courtroom, I understand it is at a cost somewhere between 
$50,000 to $65,000?
    Judge Hatter. That is correct. Each time, Congresswoman, 
yes.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.

                            MIAMI COURTHOUSE

    Mr. Kolbe. Thank you.
    I am feeling in such a generous mood this morning, I am 
going to let both of my distinguished colleagues from this side 
of the aisle go ahead of me here.
    Mrs. Meek.
    Mrs. Meek. Thank you very much, Mr. Chairman.
    I want the Committee to know that Judge Edward Davis is my 
judge and I am very, very proud of Judge Davis. We have worked 
very persistently with OMB about the courthouses because I feel 
that the judicial branch certainly has Constitutional 
permission to do what you have done and you did your research 
very well. So, I have strongly advocated your position in terms 
of the courtrooms.
    I understand from my experience in Miami that this is the 
busiest trial court in the Federal system, Judge Davis, and 
that you are very busy and the burden in the courtroom is 
extremely heavy and there are sensitive kinds of issues with 
which you are dealing there. The drug trade imports, that is a 
very sensitive thing with which you are dealing. And we are 
just in an area in Miami where it is important to have a strong 
judiciary and have one that is working very well. It is 
extremely important.
    Now, your project budget has been cut by $11 million 
because of this courtroom sharing initiative, which the 
Administration has proposed. Now, I am an old research person. 
Many years ago I learned your assumptions affect your 
conclusion. And you have different sets of assumptions. OMB has 
a different set of assumptions than the Federal Judiciary has. 
And, of course, I agree with the Federal Judiciary.
    Please describe to the Subcommittee how this project 
reduction due to the proposed courtroom sharing will affect the 
administration of justice in South Florida?
    Judge Davis. Well, thank you very much, Carrie, and thank 
you very much for letting me have an opportunity to speak here 
today on this.
    I must say we were shocked on this. We have had inadequate 
space in our court since 1983, when we had our last courthouse 
built to take care of our 30-year needs at that time, and we 
were overfilled before we got into it.
    We have had the heaviest caseload of criminal jury trials 
in the United States year after year after year. We had an 
agreement with GSA to build a 16-courtroom courthouse with 6 
oversized courtrooms in 1992. Congress approved this project in 
1996 for a site and design. We acquired the land. We have tried 
every year since 1992, more criminal jury trials than any court 
in the United States.
    We continue to do that. Our level rises consistently over 
time. We cannot do our job unless we have courtrooms to try 
these cases. As Judge Hatter points out, we have trials going 
continuously, you finish your trial, your jury may be in 
deliberations for a week. I just left a judge that had finished 
an 8-week trial with 11 defendants. We brought in 25 Marshals 
from outside of the district to be sure that we had adequate 
security because our existing facilities don't give us 
appropriate security. We had to block off aisles and hallways 
to allow shackled prisoners to come in before the jury arrived. 
While that jury was out, the judge had to try two other cases, 
small cases, but they needed jury rooms. So, you shift and 
share your jury rooms now.
    We can't operate doing what OMB has suggested in this case. 
It makes no sense and we also believe that it will save 
literally no money. Our design is 90 percent complete today, 
according to our architect. The architect advised us that 
because of the building boom in Miami the amount of funds that 
GSA requested for the full project is understated by several 
million dollars. They believe with new design and a delay in 
the project that there will be no savings or very little saving 
at all could be achieved by this project.
    I have been here when we have tried to share courtrooms 
because we did not have them. It did not work for us then, it 
will not work for us in the future. I ask you to support what 
we have requested and what GSA has requested and has been 
approved throughout the process.
    Thank you.
    Mrs. Meek. Thank you, Judge Davis.
    Thank you, Mr. Chairman.
    Mr. Kolbe. I will let you have one more question.
    Mrs. Meek. Okay. Good.
    Mr. Kolbe. It has got to be short. [Laughter.]

                            COST OF REDESIGN

    Mrs. Meek. I just wanted to nail the point down, Mr. 
Chairman. The Judge just mentioned something that is very 
important. Changing the design of the courthouse, will be very 
traumatic because it is about half completed now.
    Judge Davis. Design is 90 percent complete.
    Mrs. Meek. Oh, 90 percent.
    Judge Davis. We have just received yesterday the letter 
from the architect that indicated it was 90 percent complete. 
We are working on the budget now.
    Mrs. Meek. Tell me if I am correct in this, is it true that 
the General Services Administration estimates the cost of a 
complete redesign to be approximately $2.3 million.
    Judge Davis. That is correct.
    Mrs. Meek. And a one-year delay could result in additional 
costs of over $4 million. And you are in the process of 
breaking ground in 2001?
    Judge Davis. We would be----
    Mrs. Meek. Hopefully?
    Judge Davis. Yes. We would be if we go on track. The 
construction documents should go out May 1. And hopefully we 
will be able to meet some of those guidelines.

                          NEED FOR COURTROOMS

    Mrs. Meek. What happens if you have visiting judges?
    Judge Davis. I say the building boom is killing us right 
now. We are hitting--it looks like according to the estimates 
we had from yesterday that that is going to cause a 12 percent 
increase in certain parts of the project. In addition, the 
delay General Services Administration tells us and I am sure is 
accurate, will cost another $250,000 per month to put this 
building on-line in the future. This is a project that was done 
when courtroom sharing was changed.
    Mrs. Meek. So, you aren't going to have space for visiting 
judges, I assume?
    Judge Davis. No. We will not. I mean if the building was 
built the way OMB suggested.
    Mrs. Meek. Is there space in any of the other courthouses 
you have around there, other courtrooms?
    Judge Davis. It just would not work.
    Mrs. Meek. Okay.
    Judge Davis. I would be happy to answer any questions on 
any part of this project by any member of the staff.
    Mrs. Meek. Thank you, Judge Davis.
    Thank you, Mr. Chairman.

                          ERNST & YOUNG STUDY

    Mr. Kolbe. Thank you very much, Mrs. Meek.
    Let me ask a couple of questions here. We can hopefully 
wrap this up fairly quickly. Judge Roth, you talked about the 
fact that there was a comprehensive study by Ernst & Young of 
your facilities program. I think you have already given us a 
prelude of what is going to be in it. I will reserve judgment 
until I have a chance to see the study but you tell us that it 
is going to recommend one courtroom for every active judge. I 
think the real issue is going to be what kind of criteria you 
gave them and what kind of information you gave them.
    I will have real questions as to how independent this study 
is, I would have to tell you.
    Judge Roth. Mr. Chairman, let me say that we felt, first of 
all, in contracting with Ernst & Young that we are contracting 
with an internationally renowned organization.
    Mr. Kolbe. Well, of course.
    Judge Roth. We have had them interview all agencies 
involved in courthouse construction--OMB, GSA, and 
Congressional staffers. We have encouraged them to explore in 
depth all facets of court operations.
    We had a focus group here in Washington of District Judges, 
discussing courtroom use. Ernst & Young has visited a number of 
courthouses around the country, has observed operations in 
those courthouses and has discussed operations. Ernst & Young 
has, for example, visited the Brooklyn, New York, courthouse. 
The Eastern District of New York is now in a forced courtroom 
sharing situation. There were two towers to the courthouse and 
one tower has been torn down, while a new facility is being 
built.
    The judges are in a three-judges-to-two-courtroom ratio in 
the remaining tower. They are existing but it is a very 
difficult situation. Ernst & Young visited that court, viewed 
the operations of that court and have verified that the judges 
there are having a difficult time operating in that type of 
environment.
    Mr. Kolbe. So, you did ask them specifically to look at the 
issue of courtroom sharing?
    Judge Roth. Yes, we did.
    Mr. Kolbe. Okay. When is the final study going to be 
complete, when can we expect to have it?
    Judge Roth. We hope by the end of April.
    Mr. Kolbe. Very soon.
    Judge Roth. It is grinding out, like sausage.

                         GUIDELINES EXCEPTIONS

    Mr. Kolbe. Okay. Do the projects that you have requested 
for fiscal year 2001 conform to the courtroom sharing policy 
that is contained in your guide?
    Judge Roth. There are exceptions which have been considered 
by the Judicial Councils of the courts involved. For instance, 
Miami is requesting a second special proceeding courtroom which 
they need because of the multi-defendant trials that take place 
there. So, any exceptions to the guidelines have been carefully 
considered by the Judicial Councils and approved by the 
Judicial Councils.

                           SEATTLE COURTHOUSE

    Mr. Kolbe. Going in the other direction, though, doesn't 
Seattle include some courtroom sharing?
    Judge Roth. The judges in Seattle determined that with 
their caseload and their case mix they can function in that 
manner. Unfortunately, OMB has cut out an additional courtroom 
beyond what Seattle thought they could exist with.
    Mr. Kolbe. Well, I am interested because I certainly--Judge 
Davis interpreted your remark as being not just for your 
courthouse, but as a general proposition when you said you 
can't operate without one courtroom per active judge. Currently 
in Seattle they think they can.
    Judge Roth. Well, Mr. Chairman, there is a very different 
mix of types of cases, of caseload per judge in various courts 
around the country. So, the courts aren't fungible. Districts 
aren't fungible. What works in Seattle may not work at all in 
Miami. It depends upon the caseload and the----
    Mr. Kolbe. And I accept that. Then why shouldn't I be a 
little dubious about a blanket statement by Ernst & Young that 
every active judge must have a separate courtroom?

                            CASE MANAGEMENT

    Judge Roth. Because in consideration of the situation as a 
whole in most courthouses which are much smaller than the 
Seattle Courthouse, the conclusion is that the system does not 
operate in a fair and just manner unless an active judge has a 
courtroom. As a District Judge, we are trained at the Federal 
Judicial Center in case management.
    One of the things that we are taught is that as a case 
comes to you, you want to get that case planned, you want to 
have a trial date down the line and lawyers informed when that 
trial is going to happen. If you aren't sure you are going to 
have a courtroom to have that trial in, it is very difficult to 
convince the lawyers that the trial will go forward. It is the 
imminence of the trial that causes cases to settle.
    When I was a District Judge, my calendar six months down 
the line had probably two cases scheduled for my courtroom for 
every day of the week. Now, as those cases came closer to the 
trial date, often one, sometimes both, would settle so that my 
courtroom might be dark but it didn't mean thathaving that 
courtroom there, having the lawyers know that that courtroom was there 
for the trial did not act as a very significant factor in getting the 
case to settle.
    Like Judge Hatter, I sometimes ended up with two cases 
going on and I tried one in the morning and one in the 
afternoon. In essence in those situations I needed two 
courtrooms and I was fortunate that I was in the situation 
where I could borrow a courtroom.
    My personal experience reinforces what Ernst & Young has 
determined that as a general rule that is what is needed.
    Mr. Kolbe. Well, as a general rule, but I mean my question 
would be why, if there are cases as Seattle may be such a case, 
it looks to me that it is something that ought to be considered 
where it is possible.
    In fact, you just described a situation for yourself where 
you scheduled two trials to take place in your courtroom at the 
same time. Now, you knew that was going to be impossible to do. 
And, so, in a sense you were courtroom sharing yourself there.
    If you have, just to take a hypothetical, if you have 12 
judges in a courthouse in the course of that time, one of them 
is almost certainly either going to be on vacation or ill or 
doing something else. We have learned, certainly universities 
learned from classroom management and others, that you can 
utilize space better. It seems to me that with a common sense 
approach to it you ought to be able to consider the idea of 
courtroom sharing as a way that it can be managed.
    Judge Roth. Well, Mr. Chairman, let me say that when a case 
settles and the courtroom is empty, as I said, the availability 
of that courtroom has served a purpose. If the courtroom isn't 
empty, if one morning you have 15 cases coming to trial, and 12 
courtrooms available, you are going to send home the litigants 
in three of those cases. I have had that happen to me when I 
was a lawyer trying cases in the Delaware State Courts. I 
arrived at the courthouse with my client and my witnesses and I 
was told we are very sorry, it turns out that we don't have a 
courtroom for you after all. You go home.
    Mr. Kolbe. But in the case you described, where you had two 
cases, if they had not settled those, you would have had to 
send one of them home anyhow, right?
    Judge Roth. Well, or find another courtroom or even try one 
case in the morning and one case in the afternoon in one 
courtroom. Those are the types of solutions that you can make 
work in emergencies but that don't work in the orderly day-to-
day operations of a courthouse.
    Judge Edwards. Chairman Kolbe.
    Mr. Kolbe. Go ahead. I want to ask one more question in 
this area. But go ahead.

                           COURTROOM SHARING

    Judge Edwards. I was going to say in part response to what 
you have been asking Judge Roth, the general rule may be a 
problem but we are facing a general rule from OMB. OMB has done 
the flip of what we are being accused of doing and that is the 
disaster. It would be one thing if we had a presumption in our 
favor. That is, the presumption is one courtroom per judge 
unless OMB or some other interested party could show to the 
contrary. But we are not even given that advantage.
    Mr. Kolbe. Will the Ernst & Young study give us any hard 
evidence about the problem of courtroom sharing, that it has 
not worked? Results in justice delayed, in justice denied, 
added costs?
    Judge Roth. It is my understanding that that will be 
present. I have not seen the draft in the state that it is.
    Mr. Kolbe. Everything we are hearing is very anecdotal.
    Judge Roth. Well, that is one of the reasons why we felt it 
was important that Ernst & Young do a study and include in 
their study courtroom sharing. I think we will be able to 
provide you with a great deal of the information that we hope 
will convince you that our position is well taken.
    Judge Hatter. Mr. Chairman, could I just say that under 
OMB's proposal the courtroom sharing is not just between the 
active judges and the senior judges, it is also with magistrate 
judges and with bankruptcy judges.
    Mr. Kolbe. Right.
    Judge Hatter. And magistrate judges do not hear felony jury 
trials. Bankruptcy judges don't even have jury boxes in their 
courtrooms. So, again, it doesn't make very much sense to talk 
about that kind of sharing.
    Mr. Kolbe. Okay. I would agree with the statement that 
Judge Edwards just made that the reversing of this presumption, 
saying, automatically that there would be a hard and fast rule 
that all will be sharing, would be just as bad as saying there 
will not be any sharing. My view is that we should be able to 
consider this where it is appropriate.
    Judge, very quickly, and then I will go to my last 
question.

                    DISTRICT OF COLUMBIA COURTHOUSE

    Judge Edwards. I am going to make it very, very short if I 
may. I have no one up here to adopt me so I will be killed if I 
go back to my home court and I don't make the point.
    Mr. Kolbe. By the way, are all of your courtrooms empty 
today?
    Judge Edwards. Are all of them empty today? I hope not.
    Mr. Kolbe. No, all four of you.
    Judge Hatter. Mine is being used by another judge trying 
one of my multi-defendant cases today.
    Mr. Kolbe. Thank you.
    Judge Edwards. I have one wrinkle on all of what you have 
heard today and it is a simple one and the D.C. Circuit is 
affected by what I want to say. It is bad economics. OMB's 
proposal makes no sense. Our design is done. We are ready for 
construction. It is a $109 million project. They think they 
will save $5 million. In fact, the GSA figures, they have run 
the figures, if we have to do what OMB proposes to do it will 
cost the taxpayers an additional $10 million.
    Mr. Kolbe. Judge, I think you make a good point and the 
thrust of my questions has not been about projects that are 
already completed with the design. But I think there is a 
broader question, a more long-term question as to whether what 
the policy should be for other projects as we go into the 
design.
    Judge Edwards. I am just hoping that as you consider the 
larger policy that those of us who are in a very clear 
situation can get the appropriations that we ought to 
appropriately get.

                             PRIORITY LIST

    Mr. Kolbe. Leaving the sharing for a moment, on the 
priority list, why did you include Springfield, Massachusetts, 
courthouse for construction when GSA made it fairly clear, I 
believe, that it was one they wouldn't be able to start in the 
coming fiscal year?
    Judge Roth. Well, originally, it was anticipated that 
itcould. Apparently there is--Eugene and Springfield--one of them was 
on the cusp. It was going to be ready either in August or October.
    If GSA because of changes in circumstances determines that 
it is not ready, we will abide with what GSA says. Our 
understanding is when the list was presented these were 
projects ready to go. The list attached to my statement are the 
projects which GSA and we agreed are ready to go.
    Mr. Kolbe. Well, okay. I understand it was on the original 
request, but on your revised request it is still there. You are 
still saying it is ready to go now?
    Judge Roth. Well, that was our understanding. If GSA says 
it is not ready to go, then we are getting different vibrations 
from the court, itself, than we are getting from GSA in 
Washington. But----
    Mr. Kolbe. You mean from GSA up in Springfield as opposed 
to GSA down here?
    Judge Roth. Yes.
    Mr. Kolbe. That does happen.
    I see you have this dilemma. Excuse me, Mr. Goode, do you 
have any questions? I apologize here.
    Mr. Goode. No. I don't have any questions.

                          ACHIEVING CONSENSUS

    Mr. Kolbe. Okay. I think you see the dilemma--and I will 
conclude as far as I am concerned--I think you see the dilemma 
that we have here. You are in the business all the time of 
trying to adjudicate between parties that have different points 
of view, that is your job. In a sense, that is our job, too, of 
establishing priorities. But I have been very clear that I want 
to do this on the basis of information that is of a set 
standard, a set of practices and agreed upon priorities and 
usages that all parties can agree upon, otherwise, it does 
become just a political decision and it shouldn't be.
    And my frustration here is that we do not have the courts 
and the Executive Branch, in this case, General Services 
Administration and OMB, together on this thing. And so my 
dilemma is to try and to sort this out and try to figure out 
what a policy ought to be. And I would really prefer to have 
you people go into your courtroom with GSA and OMB, go into the 
jury room and thrash this out and come back to me with a 
decision about this rather than my having to sort it out.
    Judge Roth. Let me say that GSA and the courts do thrash it 
out. This pile of documents is the information on the Richmond, 
Virginia, courthouse. This was done by GSA and the courts 
working together. OMB has jumped into the scene. OMB did not 
consult with us before coming out with their new policy. We 
feel we can work very well with GSA by the statute--the 
councils, determining what is needed, working with GSA to 
provide it in the most economical way possible, coming up with 
figures and facts to support what we are doing. We would hope 
working with GSA we can go forward on the list as GSA and the 
courts have worked it out.
    Mr. Kolbe. Does OMB come to you and ask for information or 
do they just go through GSA?
    Judge Roth. No. They work with GSA.
    Mr. Kolbe. They work with GSA.
    Judge Roth. We work with GSA.
    Mr. Kolbe. And you work with GSA?
    Judge Roth. Yes, we work with GSA.

                        OMB UNILATERAL DECISION

    Mr. Kolbe. And so there is not a direct line--OMB's analyst 
for construction of courthouses does not come to talk to you 
about this issue at all?
    Judge Hatter. We weren't even given the courtesy of 
commenting about what they were going to submit to you. We saw 
it after the fact.
    Judge Edwards. The numbers that you have from us are the 
same numbers that GSA sent in to OMB. There is no inconsistency 
between our thinking and GSA's thinking. The problem here, 
plain and simple, is OMB. Mr. Peck was very polite and 
diplomatic today in hedging on that point. He is in a bind as 
is all GSA. Please, understand there is no confusion on this 
point. GSA sent in numbers that supported our positions right 
down the line. The change came only when OMB imposed a 
unilaterally created standard that was not justified by anyone.
    Judge Roth. And by statute it is the courts and GSA which 
create these projects. OMB does not have a role in this 
decision making process of what is needed for the courts.

                           CONCLUDING REMARKS

    Mr. Kolbe. All right. Well, thank you all very much for 
helping to enlighten us on this. Maybe this will all be moot if 
the 302(b) allocation for the Subcommittee is so insufficient 
that we don't get to do any of this construction. Maybe we will 
have another year to sort some of this out. But I----
    Judge Edwards. Don't say that, please, Mr. Chairman. 
[Laughter.]
    Mr. Kolbe. Well, I certainly hope that is not the case and 
that we will be able to go forward with some of this 
construction here. I appreciate very much your being here today 
and being so helpful.
    Judge Roth. We appreciate the opportunity, thank you.
    Mr. Kolbe. The Subcommittee is adjourned.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                           W I T N E S S E S

                              ----------                              
                                                                   Page
Barram, D.J......................................................   153
Bellardo, L.J....................................................   485
Bennett, D.D.....................................................   153
Carlin, J.W......................................................   485
Cohen, M.A.......................................................  1261
Davis, E.B.......................................................   631
Edwards, H.T.....................................................   631
Erdreich, B.L....................................................  1115
Hatter, T.J......................................................   631
LaChance, J.R....................................................   727
Mason, D.M.......................................................     1
McDonald, D.L....................................................     1
McFarland, P.E...................................................  1221
Peck, R.A........................................................   153
Potts, S.D.......................................................  1152
Roth, J.R........................................................   631
Thomas, A.C......................................................   485
Wold, D.R........................................................     1


                               I N D E X

                              ----------                              
Federal Election Commission
                                                                   Page
    Alternative Dispute Resolution...............................    31
    Administrative Fine Provision................................    24
    Blacks in Supervisory Positions..............................    22
    Campaign Cycle Reporting.....................................    29
    Case Management System.......................................    30
    Electronic Filing............................................23, 26
    FEC Web Page.................................................    30
    Fiscal Year 2001 Budget Request and Justification............    76
    Fiscal Year 2001 Performance Plan............................   142
    Hoyer, Opening Statement of Congressman......................    22
    Increase in FTE for Commissioners............................    19
    Justification, FY 2001 Congressional.........................    76
    Kolbe, Summary Opening Statement of Chairman.................     1
    Kolbe, Prepared Opening Statement of Chairman................     3
    Legislative Recommendations..................................    30
    McDonald, Summary Statement of Vice Chairman.................     5
    McDonald, Prepared Statement of Vice Chairman................     7
    Presidential Matching Fund System............................    28
    PricewaterhouseCoopers (PWC) Status Report...................   106
    Questions for the Record Submitted by the Committee..........    32
    Senate Electronic Filing.....................................    27
    Strategic Plan Fiscal Years 1998-2003........................   130
    Voting Systems Standards.....................................    29
General Services Administration
    1122 Program.................................................   165
    African American Burial Ground...............................   162
    Army Ammunition Plants for Disposal..........................   162
    Barram, Prepared Statement of Mr.............................   175
    Barram, Summary Statement of Mr..............................   154
    Courthouse Construction....................................156, 167
    Courtroom Sharing............................................   167
    Disposal of Surplus Real Property............................   162
    Drug Enforcement Agency Lease................................   170
    Federal Courthouses in Los Angeles...........................   163
    Food and Drug Administration Headquarters....................   172
    Hoyer, Opening Remarks of Mr.................................   156
    Hoyer, Questions Submitted by Congressman....................   277
    Introduction.................................................   153
    Kolbe, Questions Submitted by Chairman.......................   190
    Little Rock Courthouse Annex.................................   169
    Presidential Transition......................................   173
    Price, Questions Submitted by Congressman....................   283
    Priority List for Courthouse Construction....................   168
    Property Disposal--Army Ammunition Plants....................   162
    Property Disposal--National Ground Intelligence Center.......   163
    Proposed Executive Order on Telecommunications Access........   160
    Research Triangle Park--North Carolina.......................   165
    Roybal-Allard, Questions Submitted by Congressman............   287
    Section 404, Requirements for Courthouse Construction 
      Requests...................................................   157
    Suitland Federal Center......................................   173
    Telework.....................................................   170
    Witnesses....................................................   153
Judicial Conference of the United States
    Achieving Consensus..........................................   712
    Case Management..............................................   709
    Concluding Remarks...........................................   713
    Conway, Statement for the Record of Chief Judge John E.......   676
    Cost of Redesign.............................................   707
    Courtroom Sharing............................................   711
    Coyle, Statement for the Record of Judge Robert E............   684
    Davis, Prepared Statement of Chief Judge Edward B............   664
    District of Columbia Courthouse..............................   711
    Edwards, Prepared Statement of Chief Judge Harry T...........   668
    Ernst & Young Study..........................................   708
    Guidelines Exceptions........................................   709
    Hatter, Prepared Statement of Chief Judge Terry J............   646
    Judiciary Testimony..........................................   631
    Los Angeles Courthouse.......................................   704
    Miami Courthouse.............................................   706
    Multi-Defendant Courtroom....................................   705
    Need for Courtrooms..........................................   708
    OMB Unilateral Decision......................................   713
    Priority List................................................   712
    Responses to Questions from Congresswoman Roybal-Allard......   721
    Responses to Questions from the Appropriations Committee.....   715
    Roth, Prepared Statement of Judge Jane R.....................   633
    Seattle Courthouse...........................................   709
    Skretny, Statement for the Record of Judge William H.........   694
    Summary Statement............................................   631
National Archives and Records Administration
    Carlin, Summary Statement of Mr..............................   487
    Electronic Records Archives..................................   518
    Electronic Records Preservation..............................   517
    Electronic Records Management................................   522
    Introduction.................................................   485
    National Archives and Records Administration Budget 
      Justifications.............................................   549
    National Historical Publications and Records Commission......   519
    Prepared Statement of the Archivist of the United States.....   490
    Private Donor Funding for Archives I Renovation..............   516
    Questions Submitted for the Record by the Committee..........   526
    Questions Submitted for the Record by the Congressman Hoyer..   544
    Recognition of Private Donors for Archives I Renovation......   516
    Renovation of Archives I.....................................   511
    Renovation Impact on Archives I Employees....................   515
    Veterans' Records in St. Louis...............................   520

                                <all>

</pre></body></html>
